APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion of the Court of Appeal,
Fourth Appellate District, Abatti v.
Imperial Irrigation District (July
16, 2020) ……………………………………. App. 1a
Appendix B
Decision of the Superior Court of the
State of California, County of
Imperial,
Abatti
v.
Imperial
Irrigation District (Aug. 15, 2017) …... App. 115a
Appendix C
Denial of Petition for Review of the
Supreme Court of California, Abatti
v. Imperial Irrigation District (Oct.
28, 2020) ……………………..………….. App. 126a
Appendix D
Imperial
Irrigation
District,
Equitable Distribution Plan (Oct. 28,
2013) …….............................................. App. 127a

App. 1a
Appendix A
Filed July 16, 2020
CERTIFIED FOR PUBLICATION
COURT OF APPEAL, FOURTH APPELLATE DISTRICT
DIVISION ONE
STATE OF CALIFORNIA
D072850
(Super. Ct. No. ECU07980)
MICHAEL ABATTI, as Trustee, etc., et al.,
Plaintiffs and Appellants,
v.
IMPERIAL IRRIGATION DISTRICT,
Defendant and Appellant.
Appeals from a judgment and writ of mandate of the
Superior Court of Imperial County, L. Brooks
Anderholt, Judge. Affirmed in part, reversed in part,
and remanded with directions.
Musick, Peeler & Garrett, Theodore A. Chester, Jr.,
Cheryl A. Orr; Caldarelli Hejmanowski Page & Leer,
Lee E. Hejmanowski and Marisa Janine-Page for
Plaintiffs and Appellants.
Sutherland & Gerber and Lowell F. Sutherland for
Imperial County Farm Bureau, Imperial Valley
Vegetable Growers Association, and Imperial Valley
Water as Amici Curiae on behalf of Plaintiffs and
Appellants.

App. 2a
Nossaman, Frederic A. Fudacz, Jennifer L. Meeker,
Gina R. Nicholls and Tara E. Paul for Defendant and
Appellant.
O’Laughlin & Paris, Tim O’Laughlin, Valerie C.
Kincaid and Ryan E. Stager for San Joaquin
Tributaries Authority as Amicus Curiae on behalf of
Defendant and Appellant.
Allen Matkins Leck Gamble Mallory & Natsis and
David L. Osias for Imperial Valley Coalition for the
Fair Sharing of Water as Amicus Curiae on behalf of
Defendant and Appellant.
Somach Simmons & Dunn, Andrew M. Hitchings
and Alyson E. Ackerman for Association of California
Water Agencies as Amicus Curiae on behalf of
Defendant and Appellant.
Xavier Becerra, Attorney General, Robert W. Byrne,
Assistant Attorney General, Tracy L. Winsor and
Daniel M. Fuchs, Deputy Attorneys General, for State
Water Resources Control Board as Amicus Curiae on
behalf of Defendant and Appellant.
AARON, J.
INTRODUCTION
The Imperial Irrigation District (District) supplies
water from the Colorado River system to California’s
Imperial Valley. As an irrigation district, the District
holds its water rights in trust for the benefit of its
users, is responsible for managing the water supply
for irrigation and other beneficial uses, and is
empowered by California law to do so. District water

App. 3a
users include municipal, industrial, and agricultural
users, or farmers. 1
In 2013, the District implemented an equitable
distribution plan with an annual water apportionment
for each category of users (2013 EDP). Michael Abatti
presently owns and farms land in the Imperial Valley.
Abatti, as trustee of the Michael and Kerri Abatti
Family Trust, and Mike Abatti Farms, LLC
(collectively, Abatti) filed a petition for writ of
mandate to invalidate the 2013 EDP on the grounds
that, among other things, the farmers possess water
rights that entitle them to receive water sufficient to
meet their reasonable irrigation needs—and the plan
unlawfully and inequitably takes away these rights.
Abatti’s position, fairly construed, is that farmers are
entitled to receive the amounts of water that they have
historically used to irrigate their crops. 2 The District
contended that the farmers possess a right to water
The terms “agricultural user,” “agricultural water user,”
“landowner,” and “farmer” appear throughout the record,
briefing, and case law, sometimes interchangeably. In the
interest of clarity, we generally use the term “farmer” to refer to
irrigating landowners like Abatti, unless the context requires
otherwise.
1

Abatti disavows that he is arguing that farmers are entitled
to receive a particular quantity of water. But we see no other
reasonable way to interpret his position, given that he appears to
view any reduction in the amount of water available to farmers
as a transfer of their rights to other users. We note that although
Abatti’s challenge to the 2013 EDP implicates farmers’ rights and
the treatment of farmers under the plan, and we therefore
address farmers generally throughout the opinion, no other
farmers are parties to this lawsuit and Abatti does not purport to
be bringing a class or representative action.
2

App. 4a
service, but not to specific amounts of water; that the
District is required to distribute water equitably to all
users, not just to farmers; and that the 2013 EDP
allows the District to do so, while fulfilling the
District’s other obligations, such as conservation.
The superior court granted the petition. The court
found that farmers “own the equitable and beneficial
interest” in the District’s water rights, which is
appurtenant to their lands and “is a constitutionally
protected property right.” The court found that the
District abused its discretion in prioritizing other
users over farmers, taking water rights away from
farmers and transferring those rights to other users,
and failing to use historical apportionment to
determine the quantities of water that farmers would
receive under the plan.
The court entered a
declaratory judgment that prohibits the District from
distributing water in the manner set forth in the 2013
EDP, and requires the District to use a historical
method for any apportionment of water to farmers.
The District appeals from the judgment and writ of
mandate. The District maintains that the farmers’
interest is a right to water service, only, and contends
that it did not abuse its discretion in setting the
annual apportionment of water among its various
categories of users or in adopting its agricultural
allocation. The District further contends that the
superior court erred by declaring that the District is
required to distribute water to farmers based on
historical use. Abatti cross-appeals from an earlier
order sustaining the District’s demurrer to his claims
that the District’s adoption of the 2013 EDP
constitutes a breach of its fiduciary duty to farmers

App. 5a
and a taking.
arguments.

The parties also raise procedural

We conclude that the farmers within the District
possess an equitable and beneficial interest in the
District’s water rights, which is appurtenant to their
lands, and that this interest consists of a right to
water service; the District retains discretion to modify
service consistent with its duties to manage and
distribute water equitably for all categories of users
served by the District. Although the superior court
acknowledged certain of these principles, its rulings
reflect that it took an unduly narrow view of the
District’s purposes, thus failing to account for the
District’s broader obligations, and took an overly
expansive view of the rights of farmers.
We further conclude that although the court
correctly found that the District abused its discretion
in the manner in which it prioritizes water users in
the 2013 EDP, the court erred to the extent that it
found any other abuse of discretion on the part of the
District in its adoption of the 2013 EDP. The court
also erred by granting declaratory relief that usurps
the District’s authority, and that is based in part on
flawed findings.
The court properly dismissed
Abatti’s breach of fiduciary duty and taking claims.
Finally, we conclude that the parties’ procedural
arguments lack merit.
We emphasize that our conclusions are limited in
scope. In order to resolve the issues raised by Abatti’s
challenge to the 2013 EDP, we must first determine
the nature of the farmers’ interest in the District’s
water rights. But we focus solely on the District, and
take no position on other irrigation districts or the

App. 6a
rights of their users. We analyze only the discretion
exercised by the District in adopting the 2013 EDP, do
not dictate the District’s future exercise of that
discretion—including as to any action taken in
response to this opinion, and reject the superior
court’s attempt to do so. And we offer no opinion as to
potential claims that a user might bring based upon
such future actions by the District.
We affirm the judgment and writ of mandate as to
the superior court’s ruling that the District abused its
discretion in how it prioritizes apportionment among
categories of water users in the 2013 EDP, and affirm
the dismissal of the breach of fiduciary duty and
taking claims. We reverse the judgment and writ of
mandate in all other respects, and remand with
directions.
FACTUAL AND PROCEDURAL BACKGROUND 3
The District “is the sole source of fresh water for the
Imperial Valley, and all of that water comes from the
Colorado River.”
(Quantification Settlement
Agreement Cases (2011) 201 Cal.App.4th 758, 784
(QSA Cases).) Approximately 97 percent of the water
that the District distributes is used for agriculture.
Pursuant
to
the
Quantification
Settlement
Agreement (QSA), a set of agreements reached in
2003 among the District, other Southern California
water entities, and the government, which resolved
longstanding water rights disputes, the District’s
The history of the District, and of water rights in the Imperial
Valley generally, is extensive. We limit this initial overview and
our discussions post to facts necessary for this appeal, and rely
at times on prior cases that summarized these matters.
3

App. 7a
entitlement was capped at 3.1 million acrefeet,
subject to an overrun policy. 4 (Id. at p. 789) Following
the QSA, the District instituted fallowing and
efficiency-based conservation measures, retained
experts to assess distribution in shortage situations,
and eventually adopted an equitable distribution plan
(EDP) for water shortage conditions, which
apportioned water by category of user and was revised
multiple times. In October 2013, the District’s Board
adopted the 2013 EDP, which unlike previous EDPs,
provides for an annual apportionment that does not
require a shortage as a precondition to its
implementation and is thus intended to be
permanent. Pursuant to the 2013 EDP, water would
be apportioned first to nonagricultural users, with
remaining amounts apportioned among farmers using
either a straight line method or another method
chosen by the District. Farmers would be able to
share water within farm units, and buy and sell water
in a clearinghouse. At the same meeting, the Board
approved a hybrid historical/straight line agricultural
apportionment for 2014. As we discuss post, this
meant that half the apportionment would be based on
historical use, while the other half was a set amount
of water per acre.
Abatti’s family has been farming in the Imperial
Valley for over 100 years. Abatti filed a petition for
writ of mandate in the Imperial County superior court
in November 2013 challenging the 2013 EDP,
objecting to its prioritization of other users over
farmers and the agricultural allocation in the 2013
4

One acre foot is equivalent to 325,851 gallons.

App. 8a
EDP. The case was assigned to the Honorable Diane
B. Altamirano. Abatti brought claims for mandamus
under Code of Civil Procedure section 1085,
declaratory relief, taking without compensation
(taking), and breach of fiduciary duty. 5 The District
challenged the action on multiple grounds in
demurrers and in a motion to strike, claiming that the
petition was untimely, that it was barred by a prior
validation action, and that the petition did not state
adequate allegations to support the breach of
fiduciary duty and taking claims. The court struck
the breach of fiduciary duty and taking claims, and
allowed the remaining claims to proceed.
Abatti filed the operative third amended petition in
November 2014, seeking mandamus and declaratory
relief. The case was reassigned to the Honorable L.
Brooks Anderholt. The District brought another
motion to strike, which the court denied.
The superior court held a hearing on Abatti’s
petition in April 2017. In August 2017, the court
issued a writ of mandate directing the District to
repeal the 2013 EDP. In its statement of decision, the
court (i) determined the parties’ water rights; (ii)
found that the District had abused its discretion by
prioritizing other water users over farmers and by
violating the “no injury” and appurtenancy rules; (iii)
found that the District had also abused its discretion
5 Abatti also raised a claim for administrative mandamus, but
subsequently dismissed that claim.

App. 9a
by using straight line agricultural apportionment as
the default method in the 2013 EDP, rather than a
historical method; and (iv) ruled that Abatti’s action
was not barred by the statute of limitations or by a
prior validation action. The court also issued a
declaratory judgment that prohibits the District from
prioritizing any category of users over farmers, except
domestic users; from using straight-line or hybrid
agricultural apportionment, rather than historical;
and from entering into contracts that guarantee water
to any users other than domestic or agricultural users,
during shortages.
The District appealed from the judgment and writ of
mandate, and Abatti appealed from the dismissal of
his breach of fiduciary duty and taking claims. The
San Joaquin Tributaries Authority, Association of
California Water Agencies, State Water Resources
Control Board (State Board), and Imperial Valley
Coalition for the Fair Sharing of Water (IVC) all
applied to file amicus curiae briefs on behalf of the
District.
The Imperial County Farm Bureau,
Imperial Valley Vegetable Growers Association, and
Imperial Valley Water together applied to file a brief
on behalf of Abatti. We granted the applications,
indicating that we would not consider newly raised
issues. The parties filed answering briefs. 6
The parties and amicus IVC have filed a number of requests
for judicial notice, as well as related declarations, oppositions,
and objections. Most of the requested documents are not relevant
or necessary to our determination of the issues raised in the
present appeals (among other potential barriers to notice). (See
6

App. 10a
DISCUSSION
A. Standard of review
A writ of mandate under Code of Civil Procedure
section 1085 (i.e., an ordinary mandamus action)
compels the “performance of a legal duty imposed on
a government official.” (Environmental Protection
Information Center, Inc. v. Maxxam Corp. (1992) 4
Cal.App.4th 1373, 1380; see People ex rel. Younger v.
County of El Dorado (1971) 5
Cal.3d
480,
491
[describing ordinary mandamus actions].)
An ordinary mandamus suit “permits judicial
review of ... quasi-legislative acts of public agencies.”
(Carrancho v. California Air Resources Board (2003)
111 Cal.App.4th 1255, 1264-1265 (Carrancho).) “‘In
reviewing such quasi-legislative decisions, the trial
court does not inquire whether, if it had power to act
in the first instance, it would have taken the action
taken by the administrative agency. The authority of
the court is limited to determining whether the
decision of the agency was arbitrary, capricious,
entirely lacking in evidentiary support, or unlawfully
or procedurally unfair.’” (Id. at p. 1265, quoting
Fullerton Joint Union High School Dist. v. State Bd.
of Education (1982) 32 Cal.3d 779, 786.)
“The appellate court reviews the trial court’s
decision de novo under the same standard.”
People v. Rowland (1992) 4 Cal.4th 238, 268, fn. 6 (Rowland)
[declining notice of irrelevant court records].) We grant judicial
notice as to certain documents, as identified post. To the extent
that our analysis calls for a discussion of why particular
documents are not suitable for notice, we address those matters
post, as well. We deny the remaining requests.

App. 11a
(California Bldg. Industry Ass’n v. San Joaquin Valley
Air Pollution Control Dist. (2009) 178 Cal.App.4th
120, 130; see City of Arcadia v. State Water Resources
Control Board (2006) 135 Cal.App.4th 1392, 1409
[review is de novo, “except where the trial court made
foundational factual findings, which are binding on
appeal if supported by substantial evidence”].) 7
B. Water rights in the Imperial Valley
The parties’ fundamental disagreement pertains to
whether the farmers possess water rights that entitle
them to receive the amounts of water that they have
historically used to irrigate their crops, amounting to
a priority over other non-domestic users, or instead,
whether their interest is a right to water service that
is subject to modification by the District. We thus
begin with a threshold issue: whether the superior
court accurately determined the nature of the farmers’
rights. This analysis requires both historical and legal
context. Among other things, that context reflects
We reject certain of Abatti’s assertions regarding the scope of
review. First, Abatti disputes that the substantial evidence
standard of review is at issue; however, application of the abuse
of discretion standard will often call for an assessment of the
sufficiency of the evidence to support the finding at issue.
Second, Abatti argues that the superior court must conduct
independent review if fundamental rights are involved. This
principle applies to administrative, not ordinary, mandamus.
(Dominey v. Department of Personnel Administration (1998) 205
Cal.App.3d 729, 738, fn. 5.) Finally, we disagree with Abatti’s
assertion that under In Re Marriage of Arceneaux (1990) 51
Cal.3d 1130, we are bound by factual findings to which the
District did not object. One must object to avoid implied findings
(id. at pp. 1133-1134), but this does not mean that such findings
are not subject to review for substantial evidence.
7

App. 12a
that even if some landowners in the Imperial Valley
held private water rights at some time in the past, the
District is the sole owner of appropriative water rights
to Colorado River water in the Imperial Valley; all
users possess only a right to service in some form.
We first discuss the history of water rights and
irrigation in the Imperial Valley. We then address
California water and irrigation law, including as
applied to irrigation districts and landowners.
Finally, we address the parties’ arguments regarding
the farmers’ rights, and explain how the superior court
erred in determining them.
1. Additional background
Efforts to divert Colorado River water, and disputes
regarding its use, began well over a century ago.
(Arizona v. California (1963) 373 U.S. 546, 552-562
(Arizona I).) This history was marked by “the inability
of local groups or individual States to deal with these
enormous problems; the continued failure of the
States to agree on how to conserve and divide the
waters; and the ultimate action by Congress at the
request of the States creating a great system of dams
and public works nationally built, controlled, and
operated for the purpose of conserving and
distributing the water.” (Id. at p. 552.) The QSA
Cases decision discusses this history in detail. (QSA
Cases, supra, 201 Cal.App.4th at pp. 776-792.) For our
purposes, it suffices to highlight certain salient
events, as well as matters particular to California
irrigation history and the District.
California enacted the Wright Act in 1887, which
“gave irrigation districts the power to construct and

App. 13a
maintain irrigation and drainage systems,” and
passed amended versions in the decades to follow.
(Turlock Irr. Dist. v. Hetrick (1999) 71 Cal.App.4th
948, 951.)
The District’s predecessor, the
California
Development Company (CDC), was formed in the late
1890’s to irrigate the Imperial Valley with diverted
Colorado River water. (See Thayer v. Cal. Dev. Co.
(1912) 164 Cal. 117, 120 (Thayer).) The CDC posted a
notice of appropriation. (Ibid.) 8 Individuals also
posted notices of appropriation, and later assigned
their rights to the CDC. The CDC organized mutual
water companies to facilitate distribution to
stockholders.
(Id. at pp. 122-123; see ibid.
[landowners could purchase stock, which entitled
them to a certain amount of water per share].) Water
was also furnished to the City of Imperial and to a
power company. (Id. at p. 123.) Southern Pacific
Company took a controlling interest in CDC, and later
foreclosed.
In 1902, Congress enacted the Reclamation Act, to
facilitate water reclamation in the West through the
construction and operation of dams, reservoirs, and
canals. (California v. U.S. (1978) 438 U.S. 645, 648650.)
The Reclamation Act and supplemental
legislation “generally limited to 160 acres the amount
of private land in single ownership eligible to receive
water from a reclamation project.” (Bryant v. Yellen
A notice of appropriation was an early method of asserting
appropriative rights, as was actual use. (Civ. Code, § 1415; De
Necochea v. Curtis (1889) 80 Cal. 397, 407-408 (Curtis).) We
discuss appropriative rights in more detail, post.
8

App. 14a
(1980) 447 U.S. 352, 360, 368, fn. 19 (Bryant); see id.
at p. 365 [parties included class representatives for
Imperial Valley landowners with more than 160
acres].) However, the Reclamation Act provided that
it would not “‘affect any right of any State ... or of any
... user of water in, to, or from any interstate stream
or the waters thereof.’” (Arizona I, supra, 373 U.S. at
p. 623.)
The District was organized in 1911. It posted a
notice of appropriation in 1913, then acquired the
CDC’s water rights in 1916 from the Southern Pacific
Company following foreclosure, and absorbed the
mutual water companies between 1922 and 1923. The
District has been “solely responsible since that time
for the diversion, transportation, and distribution of
water from the Colorado River to the Imperial Valley.”
(Bryant, supra, 447 U.S. at p. 357, fn. 3.) 9
Efforts to divert water from the Colorado River
continued in California and the other basin states—
Abatti contends that farmers formed the District, while the
District states that it was established by popular vote. These
claims are not necessarily at odds; current law requires
landowner support for a petition to form a water district, but
permits all residents to vote on formation. (Choudhry v. Free
(1976) 17 Cal.3d 660, 662-663 (Choudhry).) In any event, the
parties do not explain how the manner in which the district was
originally formed impacts its status once formed. Abatti’s amici
contend that Imperial Valley landowners founded the CDC, but
they cite nothing to support this assertion. (Cf. Thayer, supra,
164 Cal. at p. 121 [when CDC was organized, Imperial Valley
“was unoccupied ... and substantially the whole thereof was
surveyed public land”]; Arizona I, supra, 373 U.S. at pp. 552-553
[“group of people interested” in Imperial Valley had idea to divert
water].)
9

App. 15a
Wyoming, Colorado, Utah, New Mexico, Arizona, and
Nevada. (QSA Cases, supra, 201 Cal.App.4th at pp.
777-778.) In 1922, these states entered a compact
(1922 Compact) to, among other things, apportion
water between the lower and upper basins. (Id. at p.
779.) Article VIII of the compact stated that “[p]resent
perfected rights to the beneficial use of waters of the
Colorado River System are unimpaired by this
compact.”
In 1928, Congress passed the Boulder Canyon
Project Act (Project Act), which incorporated the 1922
Compact, and went into effect on June 25, 1929. (Pub.
L. No. 70-642, 45 Stat. 1057, codified as amended at
43 U.S.C. §§ 617-619.) The Project Act authorized the
construction of “a dam and other works” to regulate
the river and distribute water, among other purposes.
(QSA Cases, supra, 201 Cal.App.4th at p. 780.) It also
incorporated a “complete statutory apportionment
intended to put an end to the longstanding dispute
over Colorado River waters.” (Ibid.) Under the Project
Act, California was limited to 4.4 million acre-feet
(MAF), and certain surplus amounts. (Id. at p. 782.)
Section 6 stated that “the dam and reservoir provided
for by section 1 hereof shall be used: First, for river
regulation, improvement of navigation, and flood
control; second, for irrigation and domestic uses and
satisfaction of present perfected rights in pursuance of
Article VIII of said Colorado River compact; and third,
for power.” (43 U.S.C. § 617e.)
In 1931, the District and other California water
entities entered into a Seven-Party Water Agreement.
The District’s priorities entitled it to amounts not to
exceed 3.85 MAF under that agreement. In 1932, the

App. 16a
District entered into a contract with the United States
for water delivery consistent with those priorities, the
1922 Compact, and the Project Act, and for dam and
canal construction (1932 Contract).
The District applied for a permit from the
predecessor to the State Board in 1933, and in 1950 it
received Permit No. 7643 to appropriate up to 3.85
MAF of Colorado River water annually. The permit
indicated that the water would be for domestic and
irrigation use. The permit further provided that it was
subject to vested rights and was without prejudice to
rights under appropriation. Municipal use was added
to the District’s permit in or after 2002.
Arizona sued to resolve disputes concerning the
allocation of water from the Colorado River, including
whether state law would control allocation. This led
to the United States Supreme Court decision in
Arizona I. (Arizona I, supra, 373 U.S. at p. 560.) In
that case, the Court held that allocation of Colorado
River water is governed by “the [Project] Act and the
Secretary [of the Interior’s] contracts, not the law of
prior appropriation ... .” (Id. at pp. 585-586.) The
Court noted that “[o]ne of the most significant
limitations in the Act is that the Secretary is required
to satisfy present perfected rights, a matter of intense
importance to those who had reduced their water
rights to actual beneficial use at the time the Act
became effective.” (Id. at p. 584, citing § 6 of the
Project Act.) In a 1964 decree, the Court defined
“perfected right” as “a water right acquired in
accordance with state law, which right has been
exercised by the actual diversion of a specific quantity
of water that has been applied to a defined area of land

App. 17a
or to definite municipal or industrial works ... .”
(Arizona v. California (1964) 376 U.S. 340, 341
(Arizona II).) The Court defined “present perfected
rights” as rights perfected as of June 25, 1929, the
effective date of the Project Act. (Ibid.) In 1979, the
Court entered a decree setting forth the present
perfected rights. (Arizona v. California (1979) 439
U.S. 419 (Arizona III).) The decree stated that the
District had present perfected rights in “annual
quantities not to exceed (i) 2,600,000 acre-feet of
diversions from the mainstream or (ii) the quantity of
mainstream water necessary to supply the
consumptive use required for irrigation of 424,145
acres and for the satisfaction of related uses,
whichever of (i) or (ii) is less, with a priority date of
1901.” (Id. at p. 429.) 10
California was able to continue using more than its
allotment of Colorado River water, until other states
increased their use.
(QSA Cases, supra, 201
Cal.App.4th at pp. 773, 785.) In the 1990’s, the federal
government required that California implement a
strategy to limit its water use. (Id. at p. 788.)
Negotiations over water issues in Southern California
culminated in the 2003 QSA and related
arrangements, which were intended to resolve
disputes among the District, other Southern
California water entities, and the government about
priority, use, and water transfers. The QSA limited
the District’s entitlement to 3.1 MAF. (Id. at p. 784.)
The 2013 EDP and this litigation eventually
Additional proceedings followed in Arizona, but they do not
impact this appeal.
10

App. 18a
followed, as we discuss post. The superior court
addressed the parties’ rights in its statement of
decision. The court determined that the District holds
“appropriative rights to Colorado River water”; that
its property is “in trust for its use and purposes”; and
that the District is required to establish rules for
equitable water distribution under Water Code section
22252. 11 The court also determined that the District’s
users “own the equitable and beneficial interest in the
water rights,” and that the “farmers’ equitable and
beneficial interest in the water rights is appurtenant
to their lands and is a constitutionally protected
property right.” The court proceeded to find that the
“beneficial use of Colorado River water ... in the early
1900s” by farmers, including Abatti’s ancestors,
perfected the District’s water rights (and,
subsequently, that the “only source” of District water
is from rights acquired through “agricultural interests
in the Imperial Valley”). 12
2. Applicable law
a. Overview of California water law
“California operates under a ‘dual’ or hybrid system
of water rights which recognizes both doctrines of
riparian rights and appropriation rights.” (United
Further statutory references are to the Water Code, unless
noted. We still identify the Water Code as needed for purposes
of clarity.
11

The parties use the term “Law of the River,” which refers to
the federal obligations “that govern the allocation and use of the
water of the Colorado River.” (Grand Canyon Trust v. U.S.
Bureau of Reclamation (9th Cir. 2012) 691 F.3d 1008, 1019, fn.
13.) We refer instead to the specific authorities, as necessary to
our discussion.
12

App. 19a
States v. State Water Resources Control Bd. (1986) 182
Cal.App.3d 82, 101 (United States).) “The riparian
doctrine confers upon the owner of land the right to
divert the water flowing by his land for use upon his
land ... .” (Ibid.; see Santa Barbara Channelkeeper v.
City of San Buenaventura (2018) 19 Cal.App.5th 1176,
1183-1184 (Channelkeeper) [noting similar principles
govern groundwater rights].)
Appropriative rights “confer[] upon one who actually
diverts and uses water the right to do so provided that
the water is used for reasonable and beneficial uses
and is surplus to that used by riparians or earlier
appropriators.” (United States, supra, 182 Cal.App.3d
at pp. 101-102; Nicoll v. Rudnick (2008) 160
Cal.App.4th 550, 556 (Nicoll) [“‘Both riparian and
appropriative rights are usufructuary only and confer
no right of private ownership in the watercourse.’”].)
“Although there is no private property right in the
corpus of the water ..., the right to its use is classified
as real property.” (Fullerton v. State Water Resources
Control Bd. (1979) 90 Cal.App.3d 590, 598.)
Appropriative water rights are ordinarily appurtenant
to the land. (Ibid.)
Abatti emphasizes the appurtenant nature of the
farmers’ rights, so we briefly address the meaning of
the term. An “appurtenance” is “something attached
to something else,” and has long been used in
reference to land and easements. (Black’s Law Dict.
(11th ed. 2019); ibid. [“appurtenant rights” crossreferences to “secondary easement,” one “appurtenant
to the primary ... easement; the right to do things ...
necessary to fully enjoy the easement”].) Accordingly,
Civil Code section 662 defines an appurtenance to land

App. 20a
as a “thing ... deemed to be incidental or appurtenant
to land when it is by right used with the land for its
benefit, as in the case of a way, or watercourse, or of a
passage for light, air, or heat ... .” Thus, “appurtenant”
denotes that the water right or interest is attached to
land, but does not denote its type or scope. (See, e.g.,
Stanislaus Water Co. v. Bachman (1908) 152 Cal. 716,
724 [contractual right to water delivery for irrigating
specific land became easement appurtenant]; City of
Pasadena v. City of Alhambra (1949) 33 Cal.2d 908,
925 [overlying water right “is based on ownership of
the land and is appurtenant thereto”]; Nicoll, supra,
160 Cal.App.4th at p. 561 [appropriative right was
appurtenant to entire property, and subsequent owner
was entitled to portion thereof].)
Thus, an
appurtenant, appropriative water right is one
associated with land. A right to water service can also
be appurtenant to land (Erwin v. Gage (1964) 226
Cal.App.2d 189, 194 (Erwin)), and as discussed in
more detail post, that is the appurtenant right held by
the farmers.
“Initially, rights to appropriate water were acquired
by actual diversion and use of the water.” (United
States, supra, 182 Cal.App.3d at p. 102; see Curtis,
supra, 80 Cal. at pp. 407-408 [addressing notice of
appropriation as another way to assert appropriative
rights].) “Beginning in 1914, however, a statutory
scheme has provided the exclusive method of
acquiring appropriation rights” in California. (United
States, at p. 102.) An application is made to the State
Board “for a permit authorizing ... the taking and use
of a specified quantity of water.” (Ibid; see § 1201, et
seq.)

App. 21a
“Superimposed on the dual system for defining water
rights are two limiting principles. First is the rule of
reasonableness:
‘the
overriding
constitutional
limitation that the water be used as reasonably
required for the beneficial use to be served.’”
(Channelkeeper, supra, 19 Cal.App.5th at p. 1184; see
Cal. Const. Art. X, § 2, [“conservation of ... waters is to
be exercised with a view to the reasonable and
beneficial use thereof in the interest of the people and
for the public welfare”]; Channelkeeper, at p. 1184
[right to use water is limited to that “‘reasonably
required for the beneficial use to be served’”].)
Reasonable use is “dependent upon not only the entire
circumstances presented but varies as the current
situation changes.” (Environmental Defense Fund v.
E. Bay Mun. Util. Dist. (1980) 26 Cal. 3d 183, 194.)
Beneficial uses are “categories of water use.”
(Channelkeeper, at p. 1185.) Under Water Code
section 106, it is “the established policy of this State
that the use of water for domestic purposes is the
highest use of water and that the next highest use is
for irrigation.”
Other beneficial uses include
municipal, industrial, and aquaculture. (Cal. Code
Regs., tit. 23, § 659, et seq.)
A second limit on water rights is “the public trust
doctrine.” (Channelkeeper, supra, 19 Cal.App.5th at p.
1184.) This doctrine derives from the principle that
water is a shared resource, and has been applied to
find that “‘parties acquiring rights in trust property,’
such as water flowing in a stream, ‘generally hold
those rights subject to the trust ... .’” (Id. at p. 1186.)

App. 22a
b. Irrigation districts
The current Irrigation District Law was enacted in
1943. (Wat. Code, § 20500, et seq.) Section 22437
provides that “[t]he title to all property acquired by a
district is held in trust for its uses and purposes.”
Earlier irrigation acts contained similar provisions.
(Wright Act, § 13 [property acquired by the district
would be held “in trust” and “dedicated and set apart
to the uses and purposes” under the act]; WrightBridgford Act, § 29 [accord].) Property includes “all
real and personal property, including water, water
rights, works, franchises, concessions and rights.” (§
20529; see ibid. [except as applied to assessments].)
“The ultimate purpose of a district organized under
the Irrigation Act is the improvement, by irrigation, of
the lands within the district.” (Jenison v. Redfield
(1906) 149 Cal. 500, 503 (Jenison).) Their core
purposes include supporting other beneficial uses as
well. (Crawford v. Imperial Irr. Dist. (1927) 200 Cal.
318, 329 (Crawford) [“prime object and purpose” is to
“provide water for the use of its inhabitants and land
owners for irrigation and domestic purposes”]; City of
Modesto v. Modesto Irrigation Dist. (1973) 34
Cal.App.3d 504, 507 (Modesto) [district’s “main
purpose is to develop, preserve and conserve water for
the beneficial use of the inhabitants”].)
A primary duty of irrigation districts is to distribute
water.
Statutory provisions govern distribution.
Section 22252, the provision under which the District
distributes water, provides: “When any charges for
the use of water are fixed by a district the water for
the use of which the charges have been fixed shall be
distributed equitably as determined by the board

App. 23a
among those offering to make the required payment.”
Irrigation districts have other responsibilities as well,
including drainage, electrical power, and flood control.
(§ 22075, et seq.)
Multiple provisions of the Water Code authorize
irrigation districts to carry out their purposes and
duties and accord them broad discretion in doing so.
(See, e.g., § 22075 [“A district may do any act
necessary to furnish sufficient water in the district for
any beneficial use”]; § 22076 [“A district may do any
act in order to put to any beneficial use any water
under its control”]; § 22225 [“Each district has the
power generally to perform all acts necessary to carry
out fully the provisions of this division”]; see also §
22437 [“The district may hold, use, acquire, manage,
sell, or lease the property as provided in this
division”]; see Baldwin Park Cnty. Water Dist. v. Cnty.
of Los Angeles (1962) 208 Cal.App.2d 87, 90 (Baldwin
Park) [“Legislature has given broad powers to
irrigation districts with respect to the control and
distribution of water”]; Crawford, supra, 200 Cal. at p.
329 [powers are “broad and comprehensive”].)
Finally, California courts have long held that
irrigation districts operate in a public capacity. (See
Jenison, supra, 149 Cal. at p. 503 [irrigation district
“when formed is a public corporation”]; Clough v.
Compton-Delevan Irr. Dist. (1938) 12 Cal.2d 385, 388
(Clough) [addressing Wright-Bridgford Act § 29,
regarding property being held in trust: “The property
is by this language impressed with the public use”];
Allen v. Hussey (1950) 101 Cal.App.2d 457, 467 (Allen)
[irrigation district is “an active trust for public uses
and purposes”].)

App. 24a
c. Irrigating landowners
In Merchants’ National Bank of San Diego v.
Escondido Irrigation District (1904) 144 Cal. 329
(Merchants), the California Supreme Court held that
landowners have a beneficial and equitable interest in
the irrigation district’s property, consisting of a right
to use or service:
“[T]he [irrigation district] is distinguished from
ordinary municipal corporations by the fact that ‘the
legal title,’ only of the property of the corporation is
vested in the district, ‘in trust for the uses and
purposes set forth in [the] act’; and that the
beneficiaries of the trust[,] who, upon familiar
equitable principles, are to be regarded as the
owners of the property[,] are the landowners in the
district ... and in whom, indeed, is vested ... in each,
the right to the several use of a definite proportion
of the water of the district, and in all, in common,
the equitable ownership of its water rights ... as the
means of supplying water. (Stats. 1887 ..., secs. 11,
13 [Wright Act].)”
(Id. at p. 334; ibid. [rejecting lender’s claim to district’s
water system], limited on other grounds in La Mesa,
Lemon Grove & Spring Val. Irr. Dist. v. Halley (1925)
197 Cal. 50, 59-60.) The Merchants court further
explained that these rights are indistinguishable
“from other private rights,” and are protected under
the state and federal constitutions. (Merchants, at p.
334.)
The California Supreme Court applied these
principles in subsequent cases. (See, e.g., Hall v. Sup.
Ct. (1926) 198 Cal. 373, 376-378, 383 (Hall) [affirming

App. 25a
injunction barring landowner Imperial County judges
from presiding over an action for damages against a
water company whose interests were purchased by the
District; as “equitable owners” of District property,
they had a proprietary interest in the case].) In the
Ivanhoe Irrigation District litigation, the California
Supreme Court affirmed the rejection of a federal
contract that incorporated the Reclamation Act’s 160acre limit. (Ivanhoe Irr. Dist. v. All Parties (1957) 47
Cal.2d 597, 606-607, 625 (Ivanhoe I), rev’d on other
grounds sub nom. Ivanhoe Irr. Dist. v. McCracken
(1958) 357 U.S. 275 (Ivanhoe II).) The Court reasoned
that the state functioned as a trustee of its domestic
waters for the benefit of users, and that under state
law, the right to use water could not be limited based
on acreage; the Reclamation Act prohibited
interference with state law; and the interest of the
United States was thus subject to the terms of the
trust. (Ivanhoe I, at pp. 625-628, 637-638.) In
reaching this conclusion, the Court observed that “[i]t
has long been the established law of the state that an
irrigation district is trustee for the landowners,” citing
Merchants and other cases. (Id. at p. 625.)13
In Bryant, the United States Supreme Court
addressed the relationship between irrigation districts
The United States Supreme Court reversed, holding that the
federal contract incorporating the Reclamation Act limit there
was valid, for reasons not pertinent to this appeal. (Ivanhoe II,
at p. 278.) On remand, the California Supreme Court repudiated
the trust theory as to the state, but did not revisit the
relationship between the irrigation district as trustee and its
users. (Ivanhoe Irr. Dist. v. All Parties (1960) 53 Cal.2d 692, 715716 (Ivanhoe III).)
13

App. 26a
and landowners in concluding that the Reclamation
Act’s 160-acre cap limit did not apply to District lands
for which the District held present perfected rights.
(Bryant, supra, 447 U.S. at p. 356.) The Court rejected
the Ninth Circuit’s view that “landowners ... were
merely members of a class” for whom the water was
held in trust, and that the 160-acre limit “would
merely require reallocation ... .” (Id. at p. 369.) The
Court determined that the Ninth Circuit had failed to
take adequate account of Arizona, in which the Court
had “recognized that § 6 of the Project Act, requiring
satisfaction of present perfected rights” was a limit on
the government’s power. (Id. at pp. 370-371.) The
Court explained:
“It may be true ... that no individual farm in the
District has a permanent right to any specific
proportion of the water held in trust by the District.
But there is no doubt that prior to 1929 the District,
in exercising its rights as trustee, delivered water to
individual farmer beneficiaries without regard to the
amount of land under single ownership ... . Indeed,
as a matter of state law, not only did the District’s
water right entitle it to deliver water to the farms in
the District regardless of size, but also the right was
equitably owned by the beneficiaries to whom the
District was obligated to deliver water.” (Id. at p.
371, citing Ivanhoe I, supra, 47 Cal.2d at pp. 624625.)
(See Bryant, at p. 371, fn. 23 [landowners have “legally
enforceable right, appurtenant to their lands, to
continued service by the District,” citing, inter alia,
Erwin, supra, 226 Cal.App.2d at pp. 194-195]; see also
Bryant, at p. 356, fn. 1 [District is “empowered to

App. 27a
distribute and otherwise administer water for the
beneficial use of its inhabitants”].) 14
At the same time, the California Supreme Court has
held that landowner water rights are subordinate to
District purposes. (Jenison, supra, 149 Cal. at pp. 503504 [“The right of a landowner of the district to the use
of the water ... is a right to be exercised in consonance
with and in furtherance of such ultimate purpose,—
viz. for the improvement by irrigation of lands within
the district,—and in no other way. His right is always
in subordination to the ultimate purpose of the trust”],
italics added).
The foregoing authorities reflect that irrigating
landowners like Abatti possess an equitable and
beneficial interest in the District’s appropriative water
rights that is appurtenant to their lands and consists
of a right to service.
3. Analysis
Having reviewed the historical and legal landscape,
we now turn to the parties’ arguments and the
superior court’s conclusions regarding the nature of
farmers’ rights.
The Court observed that the District is required “to apportion
water ... ratably to each landowner in accordance with his share
of the total assessments,” citing section 22250. (Bryant, at p. 371,
fn. 23.) The Court was referring to an assessment system that is
no longer in use, and we do not view this statement as impacting
its larger analysis. Separately, we reject amicus State Board’s
contention that Bryant mistakenly relied on the trust theory
repudiated in Ivanhoe III. The Court noted all three Ivanhoe
decisions, and Ivanhoe III did not repudiate the theory as to
irrigation districts. (Bryant, supra, 447 U.S. at pp. 371, fn. 23,
377; Ivanhoe III, supra, 53 Cal.2d at pp. 715-716.)
14

App. 28a
a. Parties’ arguments regarding farmers’ rights
We begin with Abatti, who makes a number of
arguments to support his view of farmers’ rights. 15
None has merit.
As a preliminary matter, Abatti contends that the
District’s purpose is to enable landowners to irrigate
and that its powers are “narrower” than those of other
municipal corporations.
However, the District’s
purposes and powers extend beyond irrigation, as
discussed ante, and it is obligated to provide equitable
service to all beneficial users; the authority held by
other municipal entities is irrelevant. (See Crawford,
supra, 200 Cal. at pp. 325-326, 329 [irrigation district
is not a municipal corporation, but it is a “‘public
corporation for municipal purposes,’” with broad
powers]; see Modesto Irrigation Dist. v. Pacific Gas
and Elec. Co. (N.D. Cal. 2004) 309 F.Supp.2d 1156,
1164-1165 [“‘municipal corporation’ label is neither
talismanic nor particularly instructive”].)
Turning to Abatti’s central argument, he contends
that the farmers have vested, appurtenant property
We limit our discussion of Abatti’s arguments to issues
properly raised in his combined brief. The District and Abatti
briefed the parties’ rights in connection with the District’s appeal.
However, Abatti devoted much of his cross-appellant’s reply brief
to the issue, including addressing the reply portion of the
District’s combined brief, under the guise of “establishing the ...
water rights” to show that the breach and taking claims have
merit. We do not consider these points. (Hawran v. Hixson
(2012) 209 Cal.App.4th 256, 268 [cross-appellant “‘may not use
its cross-appellant’s reply brief to answer points raised in the
appellant’s reply brief.’”].) We also do not consider arguments
newly raised in the amicus answer briefing.
15

App. 29a
rights to use water for their “reasonable irrigation
needs” and in their “usual manner,” and that they
should have priority over other non-domestic users.
As noted ante, Abatti is essentially arguing that
farmers have a right to receive the amounts of water
that they have historically used to irrigate their crops.
This argument is contrary to both the case law
regarding irrigation districts and their users, and the
principle of reasonable use. (See Merchants, supra,
144 Cal. at pp. 333-334 [landowners have right to
“several use of a definite proportion of the water of the
district, and in all, in common, the equitable
ownership of its water-rights”]; Modesto, supra, 34
Cal.App.3d at p. 507 [district’s purpose is to “develop,
preserve, and conserve” water for “beneficial use of the
inhabitants”]; Bryant, supra, 447 U.S. at p. 371 [no
farm in the District has “permanent right to any
specific proportion of the water”]; cf. Allegretti & Co. v.
County of Imperial (2006) 138 Cal.App.4th 1261, 1279
(Allegretti) [overlying user’s “claim to an unlimited
right to use as much water as it needs to irrigate flies
in the face” of reasonable use standard].)
Abatti’s position appears to be that historical use by
the farmers’ ancestors established their vested rights
to continue to receive the amounts of water that they
have been using to meet their irrigation needs, as
equitable and beneficial owners of appurtenant
interests in the District’s water rights, and that these
vested rights have been preserved, including in the
District’s permit. He relies on authority holding that
appurtenant water rights are measured by reasonable
use. However, Abatti does not establish that the

App. 30a
farmers possessed any such vested rights in the first
place.
The farmers may have a vested, appurtenant right,
but that right consists of an appurtenant right to
service, not an appurtenant water right. Erwin
recognized this distinction in rejecting a shareholder
effort to block a canal company settlement. (Erwin,
supra, 226 Cal.App.2d at p. 192.) The court found that
the shareholders’ position “presuppose[d] that it is the
water right itself ... that is appurtenant to the land of
each shareholder,” but that the real issue was
“whether it is the water right or simply the right to
receive water, that is appurtenant ... .” (Ibid.) Looking
to the company’s history of conveyances, the court
concluded that the shareholders “own a right to have
water delivered ... .” (Id. at pp. 193.)
Similarly, here, the farmers have an appurtenant
right to water service, rather than an appurtenant
water right, dictated by the history of water rights in
the Imperial Valley and by the law governing
irrigation districts. 16 Present perfected rights based
primarily on agriculture do form a basis for the
District’s entitlement to Colorado River water, 17 but as

16 Cf. Empire West Side Irrigation Dist. v. Lovelace (1970) 5
Cal.App.3d 911, 913 [distinguishing Erwin in concluding
landowners could challenge agreement between irrigation
districts, where it was previously determined that one of the
water entities was trustee for water rights that remained with
certain lands].)

The District’s present perfected rights entitle it to the lesser
of 2.6 MAF or enough water to service certain acreage. (Arizona
III, supra, 439 U.S. at p. 429.) The Seven Party Agreement
17

App. 31a
the United States Supreme Court’s decree in Arizona
made clear, those rights are held by the District, not
the farmers. (Arizona III, supra, 439 U.S. at p. 429.)
And it is the District that holds title to the
appropriative rights to the Colorado River water that
comes into the Imperial Valley; as discussed post,
Abatti does not establish the farmers hold any pre1914 rights. Thus, the farmers do not hold traditional
appropriative rights entitling them to “divert[] and
use[] water” (United States, supra, 182 Cal.App.3d at
pp. 101-102), other than as beneficial owners of the
District’s rights. That beneficial ownership entitles
them only to water service from the District.
In turn, Abatti’s reliance on the principle that “[t]he
appurtenant water right is ‘measured by the amount
of water that is reasonably and beneficially used on
the land’” is misplaced.
It is true that with
appropriative water rights acquired by use, “the
extent of the right ... is limited to the amount of water
applied to a beneficial use” and “reasonably necessary”
for that use. (Haight v. Costanich (1920) 184 Cal. 426,
431; cf. 43 U.S.C. § 372 [beneficial use is the measure
of the right to use water acquired under the
Reclamation Act].) Reasonable use is also a limit on
all water rights, as discussed ante. (Channelkeeper,
supra, 19 Cal.App.5th at p. 1184.) But, again, the
farmers do not hold appurtenant water rights; they
hold appurtenant rights to water service.
Having failed to establish any entitlement to a
particular level of continued water service, Abatti’s
allows for 3.85 MAF, which was limited to 3.1 MAF under the
QSA.

App. 32a
position amounts to an assumption that the
appurtenant nature of the farmers’ right to service—
the fact that it is linked to their land—renders it
superior to other users’ rights to water service. We are
not persuaded. All beneficial users have a right to
service, consistent with the District’s statutory
obligations to equitably distribute water. Although
some users may warrant different treatment in that
distribution, the right itself remains one to water
service. 18
However, we reject the District’s argument that “a
constitutionally protected property right—as opposed
to continued service of water—is inconsistent with
statutory and extensive case law.” The District
presents a false dichotomy. The farmers are beneficial
owners of the District’s water rights, which entitles
them to a right to service, and that right is
constitutionally protected. Thus, the farmers are
entitled to appropriate consideration in the District’s
equitable distribution of water to all of its users. The
We recognize that deprivation of a beneficial ownership right
could potentially give rise to remedies different from remedies
available for deprivation of other rights, but this does not change
the nature of the entitlement itself. Lindsay-Strathmore Irr.
Dist. v. Wutchumna Water Co. (1931) 111 Cal.App. 688, cited by
Abatti here, does not aid him. The case involved an irrigation
district’s entitlement to a particular share of water from a water
company, not a water user’s entitlement to a particular amount
of water from an irrigation district, and is otherwise
distinguishable. (Id. at pp. 701-702 [after irrigation district
purchased stock in water company, company passed resolution
limiting water deliveries; resolution was discriminatory and void
insofar as it interfered with district’s “right ... to receive the
proportion of water to which it was entitled by virtue of its shares
of stock”].)
18

App. 33a
cases cited by the District illustrate that users cannot
acquire legal ownership of district property, including
water rights, or receive water outside the district—not
that farmers lack beneficial ownership interests. (See,
e.g., Glenn Colusa Irrigation District v. Paulson (1925)
75 Cal.App. 57, 69, 71-72 [“no private estate can be
created in property devoted to a public use”]; Hildreth
v. Montecito Creek Water Co. (1903) 139 Cal. 22, 24, 29
[beneficiaries had no rights to private ownership of
water]; Madera Irrigation District v. All Persons, Etc.
(1957) 47 Cal.2d 681, 691-693, rev’d on other grounds
sub nom. in Ivanhoe II [owners of lands excluded

from district could not receive water, as there was
no right to receive water outside the district;
indicating nothing therein was inconsistent with
cases holding that irrigation district members are
“beneficial owners” of its water rights].) 19

In what appears to be a separate effort to diminish
the nature of farmers’ rights, the District contends
that “the Irrigation District Law does not create a
trust in the classic probate sense.” Irrigation districts
The District also cites section 22262, which provides that
“[n]o right in any water or water right owned by the district shall
be acquired by use ... .” It elsewhere argues that the section
underscores that historical use cannot ripen into entitlement.
Abatti contends that the section “can only be read to prevent new
water users” from claiming an interest. Neither party provides
any statutory analysis, and we do not address these points
further. We note that water service has been recognized as a
property interest in other contexts. (Cf., e.g., Erwin, supra, 226
Cal.App.2d at p. 194; De Boni Corp. v. Del Norte Water Co. (2011)
200 Cal.App.4th 1163, 1167-1168 [“shareholder’s stake in a
mutual water company is a property interest,” with consumers
entitled to receive water].)
19

App. 34a
hold their property in trust under the Water Code, not
the Probate Code, but landowners still hold a
beneficial interest in that property.
(§ 22437;
Merchants, supra, 144 Cal. at pp. 333-334.)20
Abatti raises two related issues here. First, Abatti
contends that because the District’s predecessor, the
CDC, held water rights for private use, those rights
remained private following establishment of the
District. The District responds that it is a public
entity, and that there was no reservation of title at the
time it purchased from the Southern Pacific Company
the water rights that the CDC had previously held.
We need not delve into the contours of title
reservation, but we agree with the District’s general
point: an irrigation district is public. Absent some
indication that property conveyed to the District was
to remain separate and private, we see no basis for
treating it as such. (Erwin, supra, 226 Cal.App.2d at
pp. 193-194 [canal company shareholders who
possessed only right to service could not block
settlement; history “reflect[ed] no reservation of title
We also reject the District’s reliance on Clough, supra, 12
Cal.2d at pp. 388-389 to contend that “it is futile to attempt to
discover the ‘beneficiaries ... .’” Clough was one of multiple cases
addressing the rights of bondholders in irrigation districts. (Id.
at pp. 387-388; El Camino Irr. Dist. v. El Camino Land Corp.
(1938) 12 Cal.2d 378, 380-381; Provident v. Zumwalt (1938) 12
Cal.2d 365, 368.) The Court disagreed that bondholders could
be exclusive beneficiaries and thus rejected partition of district
land as a remedy (Clough, at pp. 388-389), but the Court
confirmed elsewhere that a trust must have beneficiaries.
(Zumwalt, at p. 375 [“It would be manifestly absurd to say that
although property is held in trust, none of the benefits of the
trust accrue to the beneficiaries”].)
20

App. 35a
by the owners who conveyed the various water
rights”].)
The cases that Abatti cites do not support his
position. Thayer confirmed that the CDC had not
dedicated water to public use, in reversing a judgment
requiring water delivery to a landowner who did not
own mutual water company stock. (Thayer, supra, 164
Cal. at pp. 121-124, 131, 138.) That case was filed in
1910, before the District was even formed, and decided
in 1912; the Thayer court thus had no occasion to
address the District’s later acquisition of the CDC’s
water rights and its absorption of the water
companies. (Id. at p. 120.) Abatti’s reliance on cases
holding that one who acquires water rights must
maintain water service is likewise misplaced. (See,
e.g., City of South Pasadena v. Pasadena Land &
Water Co. (1908) 152 Cal. 579, 586-588 (South
Pasadena) [transfer of water rights from company to
city did not relieve service obligation; mandamus
could “compel the continuance of the distribution, in
the usual and proper manner”]; Brooks v. Oakdale Irr.
Dist. (1928) 90 Cal.App. 225, 240-241 [grantees of
water system had obligation to continue same
service].) The issue is not whether the District had to
continue to provide service upon acquiring its water
rights; that appears to be undisputed. Hall is simply
inapposite. (Hall, supra, 198 Cal. at p. 383 [landowner
judges had proprietary interest].) 21
Abatti also cites Greeson v. Imperial Irr. Dist. (S.D. Cal. 1931)
55 F.2d 321, aff’d, 59 F.2d 529 (9th Cir. 1932) to support his
contention that the “Ninth Circuit recognized that ... [the
District], as successor-in-interest ... was obligated to honor the
landowners’ ‘vested ... right to have the supply continued [which
21

App. 36a
Second, Abatti contends that, “the [District’s]
[f]armers have pre-1914 water rights” (i.e.,
appropriative rights acquired through use or notice
prior to the current statutory regime). Abatti raised
this argument in the superior court. The court did not
find that farmers possessed such rights but instead,
found that the farmers hold a beneficial and equitable
interest in the District’s water rights. Abatti does not
contend on appeal that this finding is erroneous.
Further, Abatti identifies no evidence that would
support a finding that farmers in the District possess
pre-1914 water rights. His 2013 declaration states
that his “family established itself in Imperial County
over one hundred years ago and has farmed land in
the valley since that time,” but does not state that they
owned the water rights. As noted, other individuals
did hold appropriative rights, but later assigned them
to the CDC. 22
right] becomes in the nature of an appurtenance to the land.’”
Greeson involved a landowner challenge to the 1932 Contract; the
district court rejected it, because there was no present threat to
the landowners’ interests (55 F.2d at p. 325); and the Ninth
Circuit affirmed. The quoted language is from the district court,
which itself was quoting South Pasadena, and is not dispositive,
for the reasons discussed ante. In its affirmance, the Ninth
Circuit emphasized that the matter at issue was “not one alone
affecting an individual citizen,” and, rather, that water must be
apportioned “for the common good.” (59 F.2d at p. 533.)
Additionally, although pre-1914 rights holders do not need a
State Board permit, they are subject to its oversight and must file
a statement of diversion and use. (Cal. Farm Bureau Fed. v.
State Water Res. Control Bd. (2011) 51 Cal.4th 421, 428-429; §
5101.) Abatti has not established that he or other District
farmers have filed such statements with the State Board, and the
State Board has recognized the District, not individual farmers,
22

App. 37a
b. The superior court erred in determining the
farmers’ rights
The superior court erred in determining the farmers’
rights by embracing Abatti’s unduly narrow view of
the District’s purposes and his overly expansive view
of farmers’ rights.
First, the superior court focused on the District’s
distribution of water, and mainly as to farmers,
consistent with Abatti’s limited view of the District’s
purpose—but inconsistent with California law. As
discussed above, the District’s purpose is not only to
support irrigation, but also to furnish and conserve
water for all beneficial users (e.g., Jenison, supra, 149
Cal. at p. 503; Modesto, supra, 34 Cal.App.3d at p.
507), and the District has broad powers to “control and
distribut[e]” water consistent with these purposes.
(Baldwin Park, supra, 208 Cal.App.2d at p. 90; see,
e.g., § 22075 [district may do “any act necessary” to
furnish water in district “for any beneficial use”].)
Further, a water user’s asserted water needs are
subordinate to the purpose of the District to serve all
users. (See Jenison, supra, 149 Cal. at p. 504.)
Second, the superior court impliedly accepted
Abatti’s erroneous view that farmers have vested
rights to receive the amounts of water that they have
as the pre-1914 rights holder. (See Imperial Irrigation Dist. v.
State Water Res. Control Bd. (1986) 186 Cal.App.3d 1160, 1163,
fn. 4.) Amicus IVC seeks judicial notice of documents that
purportedly reflect that Abatti and other landowners tried to file
statements of diversion in 2006, and the State Board rejected
them. We decline to take judicial notice, because the materials
are not necessary to address Abatti’s argument regarding pre1914 rights.

App. 38a
historically used to irrigate their crops, as evidenced
by certain of its rulings, including that the District
cannot transfer “perfected water rights” to other
beneficiaries without consideration and that the
District must use historical apportionment for
farmers. In accepting this view, the court appears to
have accorded undue significance to the appurtenant
nature of the farmers’ interests, including by failing to
recognize that they hold appurtenant rights to water
service only, and to the role that farmers played in
perfecting the District’s water rights—a role that the
court twice notes. We discussed appurtenance and the
present perfected rights ante. Further, pursuant to
state law, under which the water rights originate, the
farmers’ rights are to water service, and not more. In
addition, the District’s present perfected rights are not
based entirely on farming, but are based on municipal
and industrial use, as well. (See Arizona II, supra, 376
U.S. at p. 341 [perfected rights are based on diversion
of water to defined land area or to “definite municipal
or industrial works”].)
In sum, the District has broad purposes and powers,
and although the farmers possess an appurtenant
right to water service, that right does not entitle
farmers to a particular amount of water or to absolute
priority over other non-domestic users with a right to
service, and it does not limit the District’s authority to
satisfy its other obligations. The extent to which the
District balances these obligations implicates

App. 39a
questions of discretion and policy, not rights.
address those questions next. 23

We

C. The District’s exercise of discretion
The superior court determined that the 2013 EDP is
unfair and/or inequitable because it prioritizes nonagricultural users over agricultural users and
establishes straight line apportionment among
agricultural users as the default method of
apportionment, rather than a historical method. We
conclude that the District did err in the manner in
which it prioritizes users, although for reasons
different from the superior court’s. We further
conclude that the District did not abuse its discretion
in adopting the agricultural allocation. 24

23 The California Supreme Court has noted the “pervasive
powers” of the District specifically, albeit in a different context.
(Choudhry, supra, 17 Cal.3d at pp. 663, 666 [holding that
requirement that directors be landowners was unconstitutional
as applied; describing the various powers of the Board, the
District’s supplying “all the water and electrical power needs of
Imperial County” (and portions of other counties), and the
residents’ lack of alternatives, and noting that the District’s
“pervasive powers” are exercised over all residents, not just
landowners].) As noted in the introduction, we express no view
regarding the application of this opinion to other irrigation
districts or their users. (See id. at p. 669 [“Imperial is singular
among irrigation districts in that it has more residents, land and
employees than the others.”].)
24 To minimize confusion that might result from using
“apportionment” in multiple contexts, we refer to the manner in
which the 2013 EDP apportions water to agricultural users as
the “agricultural allocation.”

App. 40a
1. Additional background
a. The QSA and the Inadvertent Overrun
Payback Policy
The QSA capped the District’s entitlement at 3.1
MAF. The Inadvertent Overrun Payback Policy
(IOPP), adopted in connection with the QSA,
“provide[d] a mechanism for pay-back to the Colorado
River system” from entitlement holders, due to
“inadvertent overuse by [those] holders ... .” Payback
had to be achieved through the implementation of
“extraordinary conservation measures,” i.e. those
beyond normal beneficial and reasonable use, such as
fallowing. As we explain post, the District would
eventually experience large overruns, subjecting it to
these payback provisions.
Under the IOPP, the maximum overrun account for
entitlement holders, such as the District, was limited
to 10 percent of the normal entitlement. Water
“ordered but ... not diverted” was not included in the
policy; the District understood the IOPP as not
providing credit for underuse. An entitlement holder
with a payback obligation had to submit a plan to the
federal Bureau of Reclamation (Reclamation) to “show
how it will intentionally forbear use of Colorado River
water by extraordinary conservation measures,” such
as fallowing. If payback obligations were not on target
for two consecutive years, Reclamation would begin
enforcement proceedings and limit releases to that
entitlement holder for the remainder of the year.

App. 41a
b. Conservation
efforts
and
equitable
apportionment study
Before we proceed to address the District’s
conservation efforts, we briefly describe how the
District delivers water to farmers and municipal
users. For farmers, the “basic unit for the delivery of
water ... is the gate. The lands served by a gate are
divided into fields and this division varies. Sometimes
a single gate serves a single field; sometimes a single
gate serves more than one field; and ... this [may]
change[] over time as the fields served by a gate are
reorganized.”
For municipal users, the District
generally provides raw water to water agencies, which
treat the water and distribute it to users within their
service areas.
To manage its obligations under the QSA and
address potential overruns, the District began using
fallowing programs, under which it paid farmers to
remove fields from production. It later implemented
efficiency-based conservation measures, through
which it paid farmers to pursue on-farm conservation
efforts. The programs used a 10-year water use
history baseline. Fallowing required that each field
have a water use delivery history, and that multiple
fields/tenants at a gate have “verifiable water use
records.” The conservation program generally allowed
for estimated baselines, but required that all fields at
a gate participate (or have deliveries measured
individually).
The District also began evaluating how to equitably
distribute its limited water under the QSA. In
December 2004, it retained Dr. Michael Hanemann
and Mr. Bennett Brooks to “evaluate alternative

App. 42a
methods for the equitable apportionment of water”
when there was a “supply/demand imbalance (SDI)
situation” (i.e., when “expected demand for water
[was] likely to exceed the supply expected to be
available to the District”). Hanemann and Brooks
reviewed reports, considered other districts in
California, and communicated with stakeholders.
Hanemann and Brooks provided their Draft Final
Report to the District in August 2006. They explained
that the District was “rather unique in California” in
not allocating water. It was also unique in having a
“large amount of data,” attributable to the fact that it
had a “sophisticated computerized data system for
recording how much water is delivered ... .” They
noted that the data were used “primarily for
accounting and billing,” and explained that there were
“errors whereby deliveries to one field ... are recorded
as deliveries to another field in the same account,” and
that “while accurate at the account level, the data are
not necessarily accurate at the field level.”
For primary agricultural uses (field crops and
vegetables), Hanemann and Brooks assessed the
following methods of water apportionment: historical
(soil group); historical (field history); historical
(grower/farm unit); pure straight line; and transition
from historical to straight line. Under soil group
history, “each field would receive an allocation based
on the historical average delivery of all fields with that
soil type ... .” Individual field history “allocates water
to each individual field based on the specific history of
water use per acre on that field over a baseline period
of time.” Grower history allocates water “to each
individual water user or farming unit” based on their

App. 43a
history of water use.
Under straight line
apportionment, “all fields are allocated the same
amount of water per acre.”
Hanemann and Brooks recommended against
individual field or grower history, or pure straight line
without any transition.
They found that using
individual field history would not be practical, due to
data gaps and errors. 25 They also did not believe that
it would be equitable, because there was “a large
variation in field-level water use,” much of which
appeared to be attributable to farming practices
rather than to soil, crop, irrigation method, or
weather, which “undercut[] the notion that ...
individual field history is inherently fairer ... .” They
elsewhere noted that if water use varied due to
farming practice, then variations “reflect[ed]
differences in the interests and skills of farmers and
not necessarily differences in their needs per se.” They
also found that using grower history would not be
feasible, because there were not “sufficiently
consistent record[s] ... .” The District’s records, by
account and gate, did “not necessarily correspond to
farming units,” and some fields were leased.
Hanemann and Brooks also had “serious concerns
about the implementation and equity” of that method.

Hanemann and Brooks found that of the 7,000 fields with
deliveries since 1987, 2,000 did not have a consistent history and
20-30 percent of those with consistent deliveries “may have
histories that are incomplete or questionable”—resulting in “as
many as 3,000 or more fields with histories that are problematic
... .”
25

App. 44a
Hanemann and Brooks explained that they would
“recommend either [straight line or soil group history]
apportionment for an SDI situation.” They noted the
similarity of the results of the two methods, but
concluded that soil group was “likely to be a bit fairer
because it recognizes the differences between soil
types.” They made other recommendations, as well.
Specifically, they indicated that if straight line
apportionment were adopted, there should be a
“transition period ... to allow time for adjustment”; it
should be based initially on soil group; and it should
last no more than 10 years. For either straight line

or soil group, they recommended allowing
“transfers among fields charged under the same
account,” which would provide flexibility. They
also advised that the apportionment “need[ed] to
be complemented by permitting internal
exchanges of water within the District,” again, to
provide flexibility. 26

Hanemann
and
Brooks
also
addressed
apportionment to industrial and urban users in the
event of an SDI.
For industrial users, they
recommended focusing on water use efficiency and
District monitoring, and suggested that “the District
should generally impose a smaller reduction ... or
These recommendations pertain to field crops and
vegetables, which comprise most water use. The experts
recommended a different method for permanent crops (e.g. fruit
trees). The District did not address permanent crops in the 2013
EDP, the parties do not focus on them in their briefing, and we
do not address them.
26

App. 45a
possibly no reduction ...” on such users. For urban
users, they recommended apportionment per capita,
by water agency, to account for development and
density. They further recommended that the District
consider conditions for the agencies, such as drought
plans, and that if they met them, the “District should
generally impose on them a smaller reduction ... .”
c. Adoption of the Equitable Distribution Plan
and other efforts
In 2006, the District’s Board of Directors (Board)
adopted a resolution for implementation of an
equitable distribution plan for SDI conditions. The
resolution explained that straight line apportionment
would be used “based upon the ease of implementation
and efficiency ... .”
The District proceeded to adopt the 2007 Equitable
Distribution Plan. The “Apportionment of Supply”
section of the plan apportioned water in an SDI in the
following order: supply of last resort; municipal;
industrial; feed lots, dairies, and fish farms;
environmental resources water; and agriculture.
Agricultural users would receive a straight line
apportionment based on the available water supply,
less the estimated demand of other users. The plan
also provided for a District Water Exchange through
which farmers could buy or sell water.
The District began developing an Integrated Water
Resources Management Plan in 2008, and adopted a
draft plan in 2009. It also began working with the
county, cities, and community members to develop an
Imperial Integrated Regional Water Management
Plan, which the Board adopted in 2012.

App. 46a
The District revised the EDP in 2008 and 2009 “to
address administrative issues and conceptual
disparities ... .” After the revisions, water would go
first to municipal users, and the industrial
apportionment required consideration of the
Integrated Water Resources Management Plan for
new contracts. In 2009, the district declared an SDI,
but rescinded it before implementation. 27
d. Adoption of the 2013 Equitable Distribution
Plan
The District experienced large consecutive overruns
in its use of water in 2011 and 2012 due to improved
agricultural markets and continuing drought
conditions. The overruns cost the District $22 million
to resolve. As a January 2013 water management
policy document explained, payback under the IOPP
was with conserved water. The District’s primary
method of water conservation was fallowing, for which
costs had increased with the agricultural markets;
conservation projects had even higher costs. The
policy document concluded that “large-scale[]
consecutive
overruns”
were
“not financially
manageable,” and that the current EDP system was
“backward-looking” and not sufficient for water
management. The policy document also noted that
Lake Mead’s elevation had dropped, and that reservoir
depletions could lead to accelerated payback or
suspension of the IOPP.
In February 2013, the District’s Water Conservation
Committee recommended that the Board “provide for
The District suggests that it is relevant that Abatti voted as
a Board member to adopt prior EDPs. We disagree.
27

App. 47a
an annual system of apportionment to more effectively
manage its Colorado River water supply ... .” The
Board accepted this recommendation.
The Board considered the revised, permanent EDP,
with farmers remaining last in the apportionment
order and receiving water by straight line
apportionment, at a public Board of Directors meeting
held in April 2013. Abatti submitted a letter to the
Board at the meeting, raising concerns. Director
Stephen Benson stated that it was “important that
[they] just get started ... . Whether it works or not,
we’re pretty sure that it won’t work ... I think we’ve all
agreed on that. And we’re ... assuming ... that there
will be changes going forward.” Benson believed that
the straight line method was unfair to those with
higher historical water use and that Abatti had raised
valid arguments in his letter, but said that the District
“just ... need[ed] to move forward.” Director James
Hanks explained that the plan “had some major
flaws,” but that it was meant to get a handle on the
IOPP and send the message that the District was
doing so. He did think straight line apportionment
“kill[ed] the future on farm program [sic]”; put higher
water users “at the mercy of ... low water users”; and
that the District had to move away from it. Director
Bruce Kuhn suggested getting the plan “ratified under
historical or ... straight line,” making sure “everybody
knows ... that it’s flexible,” and “down the road, if it
looks like straight line is not making it, perhaps we
can go historical.” The Board adopted a revised EDP.
The revised EDP provided for an annual
apportionment, kept the same apportionment user
order as in the earlier EDPs, i.e., with agricultural

App. 48a
users
last,
and
maintained
straight
line
apportionment for agricultural users, together with
the water exchange, which was in the form of an
Agricultural Water Clearinghouse in the revised EDP.
The Board further revised the EDP in May 2013.
Meetings with the Water Conservation Committee
had continued, and it was “discussed that the EDP
should not be limited to the straight line method ...,
but instead allow for other known methods ... .” A
“Method of Apportionment” section in the May 2013
EDP identified the various methods of agricultural
apportionment and indicated that straight line would
be used for the pilot program.
The overall
apportionment order was revised to place agriculture
users second, after municipal users, and to reference
the Method of Apportionment section.
In August 2013, Reclamation’s regional director
notified the District that it was at risk of exceeding its
2013 adjusted entitlement. He explained that if the
District were to do so, Reclamation would be required
under the IOPP to bring enforcement proceedings and
limit 2014 releases.
At an October 2013 meeting, the Board discussed the
agricultural
apportionment
method
to
be
implemented for 2014.
Members of the public
addressed their concerns about the apportionment
methods and process. The Board asked District staff
to look into a hybrid method of apportionment.
At a meeting the following week, District staff
presented its findings, and there were again public
comments. The staff explained that different per-acre
straight line apportionment levels would leave

App. 49a
different reserve amounts. The Board approved a
“50/50 percent hybrid agricultural apportionment
with a historical use component ... for calendar year
2014 consistent with the [EDP], with approximately
36,000 acre feet in the agricultural water
clearinghouse as a reserve.”
A later District
communication explained how the apportionment
would be calculated, and the 2014 apportionment
range (i.e., half of average use from 2003 to 2012,
measured up to 10 acre feet, and excluding high and
low years, plus 2.86 acre feet per eligible agricultural
acre from the straight line component, up to a
potential total of 7.86 acre feet).
The Board made a further revision to the EDP,
which is not at issue here, resulting in the version
challenged in this appeal (the 2013 EDP). The 2013
EDP provides that annual apportionment of the
Available Water Supply would occur as follows:
“a. Municipal Users - Base amount of 2006 usage
plus current District wide average use per capita
multiplied by the increase in population since 2006.
“b. Industrial Users - For existing contracts,
estimated based on past use, not to exceed
contracted amount and contract terms. For new
contracts, estimated based on anticipated use, not to
exceed contract amount and contract terms, taking
into consideration the Integrated Water Resources
Management Plan.
“c. Feed Lots, Dairies, and Fish Farms - Estimated
based upon past use and consideration of future
changes.

App. 50a
“d. Environmental Resources Water - Estimated
based upon the amount reasonably necessary to
achieve the purposes of the District’s commitments,
taking past use into account.
“e. Agricultural Lands - Subtract the estimated
demand for categories in Subsections (a) through (d)
above from the Available Water Supply. Under a
Straight Line Apportionment, divide the remaining
Available Water Supply by the total number of
Eligible Agricultural Acres to determine the
Apportionment per Eligible Agricultural Acre.
Under a different Method of Apportionment, the
Apportionment will be calculated for Eligible
Agricultural Acres based on that Method of
Apportionment ... .” 28
The Method of Apportionment section provides:
“Apportionment models understood and discussed
to date are historical, straight line, soil type, and
hybrids of a combination of these methods. The
default Method of Apportionment is Straight Line
Apportionment, which may be changed for any
Water Year prior to the notification period ... herein
at the discretion of the [Board].”
A separate section states that “[n]on-agricultural
water users shall be allowed to use that amount of
water needed for reasonable and beneficial use.”
Another section states in part that the Board “may

The District uses the term Municipal Apportionment to
describe the apportionment to non-agricultural users. This term
does not appear in the 2013 EDP, and we elect to refer generally
to user priority or apportionment order.
28

App. 51a
terminate the implementation
Apportionment at any time ... .”

of

an

annual

The plan provides for two types of transfers. First,
it provides for a “farm unit,” a “grouping designated
by an Agricultural Water User of one or more water
accounts comprised of one or more fields leased or
owned by the Agricultural Water User that can share
the Apportionment for those fields.” Second, it
includes the Agricultural Water Clearinghouse for
transfers between users.
Finally, the plan addresses overruns. The Available
Water Supply is defined to exclude “any Water
Management Reduction,” which itself is defined as a
reduction due to a “district wide overrun payback
requirement[,] mandatory program, or regulatory
limitation ... .”
The plan also provides for
development of an Overrun Payback Program, in
which “the cost of and/or responsibility for any
District payback obligation will be borne” by the
responsible users.
The District represents that the hybrid method was
implemented from 2014 through 2017.
2. User prioritization
a. Superior court ruling
As noted ante, the superior court determined that
the District is required to set equitable rules for water
distribution.
The court also determined that
agricultural water users are among those to whom the
no injury rule applies, and that the District could not
“take perfected water rights from the present owner
of the lands to which they are appurtenant and
transfer [them] ... without appropriate consideration,”

App. 52a
citing Bryant. 29 The court also explained that Water
Code section 106 prioritizes domestic and then
irrigation use, and not other uses.
The superior court found that an equitable
distribution plan could be structured to “ensure that
every class of users has its water reduced equally ...
when demand exceeds supply,” but that the 2013 EDP
“prioritizes other groups of water users, in addition to
domestic water users, over farmers.” The court
similarly noted that industrial contracts could subject
water deliveries to proportionate reductions, but that
the 2013 EDP does not place limits on deliveries
under such contracts. The court then found that the
2013 EDP “allows water to be provided to new water
users, such as new industrial and environmental
users, which, in a period of shortfall, would
disproportionately affect existing farmers,” because
water is apportioned to farmers last and thus, the
amount of water that the farmers would receive would
depend on the amounts received by other users.
The court concluded that the 2013 EDP is “not
equitable because it disadvantages farmers, who
should not be treated differently and with a lesser
As discussed post, the no injury rule generally bars a change
to the place or use of water if it injures a legal user. (North Kern
Water Storage Dist. v. Kern Delta Water Dist. (2007) 147
Cal.App.4th 555, 559 (North Kern).) We will also discuss the
superior court’s finding under the “appurtenancy rule,” which is
not addressed in the case law and appears to refer to the trial
court’s acceptance of Abatti’s argument that the appurtenant
nature of the farmers’ rights to water service precludes the
District from modifying that service. This finding is unrelated to
the superior court’s earlier dismissal of Abatti’s taking claim in
his second amended petition, which we address post.
29

App. 53a
priority than other, non-domestic, classes of water

users,” and that the District abused its discretion
in adopting it. The court further concluded that
because the “prioritization puts those other water
users ahead of farmers, the 2013 EDP violates
both the ‘no injury’ rule and the ‘appurtenancy
rule[,]’” and that the District “abused its
discretion by violating such rules.”
b. The District abused its discretion in its
prioritization of users

The District is required to distribute water
equitably to its users. (See § 22252 [when charges are
fixed, water “shall be distributed equitably as
determined by the board”].) This is consistent with
the District’s public purpose. (Allen, supra, 101
Cal.App.2d at p. 467; cf. Leavitt v. Lassen Irrigation
Co. (1909) 157 Cal. 82, 90 (Leavitt) [water suppliers
acting in public capacity “must supply all alike who
are like situated”].) At the same time, the District
must distribute water consistent with its purposes
and obligations, which could potentially warrant
using different distribution methods for different user
groups. (See Jenison, supra, 149 Cal. at p. 503 [water
use must be “in consonance with and in furtherance”
of the trust’s purpose]; Cal. Const., art. X, sec. 2
[requiring conservation, and limiting use to that
reasonably required].) However, in order to fall
within the bounds of the District’s discretion, such
distinctions must be reasonable.
The 2013 EDP provides for all other water users to
receive water before agricultural users, with few, if
any, meaningful limitations on the amounts of water

App. 54a
those other water users are permitted to use, beyond
requiring reasonable and beneficial use, and utilizing
factors such as past use and subsequent changes.
Although the plan includes District discretion to
modify the agricultural apportionment method, there
does not appear to be a similar provision for the
apportionment prioritization order.
Thus, in a
shortage situation, it is the farmers who would bear
the impact—with potentially little District flexibility
to provide them any relief. Further, the District had
resources with which it could have assessed
potentially robust limitations on other users,
including the expert report discussion of industrial
and municipal users, but did not include such limits
in the 2013 EDP.
It was not reasonable for the District to adopt a
permanent, annual apportionment that applies few, if
any, limits on most categories of users and effectively
places the burden of shortages almost entirely on
farmers. The District must treat all categories of
users equitably under the plan, consistent with the
interests of the users, the District’s purposes, and
California water policy. As long as the District
satisfies these obligations, it is not required to carry
out its apportionment in any particular manner, and
the superior court erred to the extent that it directed
the District to do so.
We now turn to the District’s arguments, and begin
with one that we agree with, in part. The District
argues that its apportionment “helps to prevent
unsustainable overruns and promotes water
conservation ... .” Abatti contends that the 2013 EDP
is unnecessary and actually undermines the District’s

App. 55a
water rights. We conclude that the District could have
reasonably determined that a permanent EDP is
necessary.
Beginning in 2003, the District was subject to a 3.1
MAF cap under the QSA, and payback procedures
under the IOPP. In response, the District took steps
to address water management: it implemented
fallowing programs and, later, efficiency-based
conservation measures; retained experts; adopted and
revised the EDP; and developed water management
plans. Yet, there were still overruns, including the
consecutive overruns in 2011 and 2012, which cost the
District $22 million. In 2013, Reclamation notified
the District that the District was in danger of another
overrun, which could result in enforcement
proceedings and reduced deliveries. The experts had
found that the District was “rather unique” in not
allocating water.
Even the directors who had
concerns about the agricultural allocation in the 2013
EDP indicated that it was important to take action.
Abatti’s argument that the 2013 EDP is
unnecessary lacks force. He points out that the
District did not have an EDP for over 100 years; that
there had been only two overruns, which were repaid
via conservation (suggesting that the cost figure was
misleading); and that those overruns were due to
market conditions and drought. While it is true that
there was no EDP prior to 2003, events beginning at
that time necessitated action by the District; the
conservation programs used to repay overruns cost
the District a significant amount of money to operate;
and further market changes and droughts were not
merely possible, but the District actually faced

App. 56a
another overrun in 2013. 30 Abatti then argues that
the IOPP was working as “designed,” by providing
flexibility to pay back overruns later. This argument
minimizes the costs, and also ignores the
consequences, of successive overruns. Finally, Abatti
contends that the 2013 EDP causes a “forced
reduction” of water use by farmers, that an
appropriator’s “water rights ... are lost by a

sustained period of five years of non-use” under
sections 1240 and 1241, and that the District
risks losing its rights by reducing the amount of
water used by farmers. The authority that Abatti
cites in support of these contentions pertains to
forfeiture of pre-1914 rights and is inapposite
(Millview County Water Dist. v. State Water
Resources Control Bd. (2014) 229 Cal.App.4th
879, 891), and he provides no statutory analysis.
We deem the point forfeited, other than to note
that Abatti is essentially ignoring the existence of
the clearinghouse, as he does in other arguments
that we discuss, post. Further, amicus IVC
contends that the District is exempt from
reversion of its water rights based on non-use. 31

Abatti also contends that the District “underused 800,000 AF
of water ... worth hundreds of millions of dollars ... .” He does not
dispute the District’s view that underuse is not counted under the
IOPP, nor does he contend that underruns in some years prevent
overruns in others.
30

IVC cites section 1005, which provides that “[a]ny right to
the water of any stream which flows along a boundary of the
State and which is the subject of an interstate compact to which
the State is a party ..., shall not be subject to any ... limitation
31

App. 57a
Turning to the District’s defense of the overall
apportionment in the 2013 EDP, the District begins
by contending that 97 percent of its water is delivered
to farmers. There is no dispute that farmers receive
the vast majority of the water that the District
distributes, but that does not diminish their
entitlement to equitable distribution. Further, other
sources, including the water management plans,
reflect anticipated growth of non-agricultural water
use by 2050.
The District next contends that different categories
of users are subject to different laws and contracts,
and the 2013 EDP subjects each group to “specifically
tailored” limitations. It also denies that the 2013 EDP
prioritizes other categories of users over farmers or
that farmers bear the burden of shortages. The
District’s denials are not persuasive. The provisions
for non-agricultural users account for population
increases and other future changes—leaving few if
any meaningful limitations on the amounts of water
those users may receive, other than a requirement
provided by law ... relating to the continuity of use of such water.”
The District’s permit references section 1005. Abatti also
contends that the overrun issue was a “smokescreen” to deprive
farmers and favor new, geothermal users, in connection with
Board financial interests. He relies on documents purportedly
reflecting campaign contributions and individuals moving
between the District and geothermal companies, for which he
requests judicial notice. We decline to consider these speculative
allegations, and deny the request, because these materials are
not properly subject to judicial notice. (Rowland, supra, 4 Cal.4th
at p. 268, fn. 6.).

App. 58a
that their use be reasonable and beneficial. The
District seems to assume that non-agricultural
demand will be reduced going forward. However, the
evidence does not necessarily support this
assumption. Further, even if this were correct, that
would not change the fact that the only users whose
use is actually limited under the EDP are farmers.
We now turn to the apportionment for each group in
the 2013 EDP, addressing demand as applicable.
Municipal users receive a “[b]ase amount of 2006
usage plus current District-wide average use per
capita multiplied by the increase in population since
2006,” under the 2013 EDP. Although this provision
uses a 2006 baseline, it also accounts for current
average use, albeit across the District, and for
population growth. We are not persuaded by the
District’s argument that per capita municipal
consumption will decline based on laws inapplicable
to farmers. In making this argument, the District
relies on, among other things, the governor’s target of
reducing urban consumption 20 percent by 2020,
which is also reflected in the Water Conservation Act
of 2009. (Exec. Order B-37-16; § 10608.16 (Stats.
2009-2010, 7th Ex. Sess., ch. 4, § 1).). But the
governor’s executive order and the Act also address
agriculture, and the Water Management Plans in the
record reflect that municipal demand will continue to
increase through 2050.
(Exec. Order B-37-16
[addressing
urban
and
agricultural
water
management, including requiring agricultural water
management plans for more water suppliers and
ensuring that plans “identify and quantify measures
to increase water efficiency and ... adequately plan for

App. 59a
periods of limited water supply”]; § 10608.4
[legislative intent to, among other things, “[e]stablish
consistent water use efficiency planning and
implementation standards for urban water suppliers
and agricultural water suppliers”]; § 10608.48
[agricultural water management measures].) 32
Further, and significantly, regardless of whether
municipal use increases or decreases in the future, the
municipal apportionment provision still provides for
water sufficient to meet that use.
Industrial users receive water “estimated based on
past use not to exceed contracted amount and contract
terms.” For new contracts, water use is “estimated
based on anticipated use not to exceed contract
amount and contract terms taking into consideration
the Integrated Water Resources Management Plan.”
Assuming that the existing contracts contain both
limits on use and barriers to modification, as the
District contends, and for which evidence exists, it is
not the EDP that imposed those use limits. This also
does not establish that the 2013 EDP imposes
meaningful usage limits on new contracts. The
District contends that it has “implemented additional
safeguards,” citing language in the EDP regarding
anticipated use and the Integrated Water Resources
The District cites the executive order, but the order does not
appear to be in the record. We take judicial notice of the order on
our own motion. (Evid. Code, §§ 452, 459; last accessed at
https://www.ca.gov/archive/gov39/wp-content/uploads/2017/09/
5.9.16_Attested_Drought_Order.pdf). As for evidence of growth,
we do not consider the chart attached to Abatti’s initial brief and
rely on the record.
32

App. 60a
Management Plan, and maintains that it is “looking
to best management practices under the state Water
Conservation Act to set target reductions ... .” The
water management plans do reflect targets for
reducing industrial use, but they also reflect
anticipated increases in demand through 2050 (even
with assumed reductions). Further, nothing in the
2013 EDP requires the District to set target
reductions for industrial users, and it identifies no
evidence demonstrating that it has. 33
Feed lots, dairies, and fish farms are apportioned
water “[e]stimated based upon past use and
consideration of future changes.” This “consideration
of future changes” accounts for changes in demand
that might occur. The District contends that these
users “communicated the importance of treating this
category differently,” citing 2009 hearing input and
the unique issues associated with raising live
animals. The issue is not that the District treats live
animal farmers differently from farmers who grow
crops; rather, the issue is that the District imposes no
real limitations on live animal farmers’ water use.
The remaining category, “Environmental Resources
Water,” receives water under the EDP “based upon
We address two related arguments that the parties raise.
The District argues that industrial contracts provide “stability ...
necessary to get funding for these uses ... .” That contracts are
needed to get project funding is unsurprising, but that does not
mean that the projects themselves are necessary or that their
water requirements are justified. Abatti contends that “use of
fresh inland water ... for geothermal cooling ... violates the State
Board’s Resolution No. 75-58,” adopted in 1975. He does not
elaborate and we do not consider the contention further.
33

App. 61a
the amount reasonably necessary to achieve the
purposes of the District’s commitments, taking past
use into account.” The District contends that this
category is “extremely limited” to allow it to “meet
current and future environmental legal obligations
... .” However, the fact remains that there is no
limitation placed on this category of user.
We now turn to Abatti’s arguments. Although
Abatti agrees with the superior court that the District
abused its discretion in prioritizing other categories of
users over farmers, he makes a number of assertions
regarding the Water Code in this regard, some of
which are erroneous. Abatti begins by citing statutes
pertaining to irrigation district watermasters and
irrigation procedures to contend that statutory
provisions other than section 22252 reflect that a
district “may not disregard Farmers’ pre-existing
water rights in favor of distribution to other users
without such rights.” Abatti misapprehends the
import of these statutes.
The
provisions
concerning
districts
with
watermasters are simply inapposite; the District
states that it has never participated in the
watermaster program to which the provisions apply.
(See, e.g., § 22080, et. seq.)
Abatti contends that under the irrigation
procedures codified in sections 22252.1 and 22252.3,
“with respect to any expected shortage ..., the
[District] must provide notice and take into account
the Farmers’ beneficial needs ... .” We are not
persuaded.
Sections 22252.1 and 22252.3 are
discretionary and do not support his point.

App. 62a
Section 22252.1 provides that a district board “may
specify” a water application deadline for the upcoming
irrigation season (which remains fixed unless the
board provides compliant notice of a change), and
“may ... give preference” to timely applications or
lands not requiring an application. Section 22252.1
further provides that “[n]othing in this section shall
prohibit apportionment of available water to land
given preference under this section or otherwise
restrict or limit existing powers of the board to control
and provide for distribution of water.” Section
22252.3 states, in pertinent part, that in years when
a district board determines that water supplies “will
be inadequate to provide water in a quantity
furnished in years of average precipitation,” it “may
specify” a water application date for the next
irrigation season. It again states that “[n]othing in
this section shall prohibit or limit the apportionment
of available water to land given preference under
Section 22252.1 or this section or to otherwise restrict
or limit existing powers of the district to control and
provide for distribution of water.”
Both sections use the term “may,” not “shall” or
“must,” and both confirm that they place no limitation
on a district’s power to control water distribution.
Thus, these statutory provisions permit, but do not
require, compliance with their irrigation application
procedures. Abatti disagrees, citing State Water
Resources Control Board Cases (2006) 136
Cal.App.4th 674 (SWRCB) to support his contention
that the term “may” must “be construed as mandatory
where the ‘public interest or private right requires
that a thing should be done.’” But SWRCB was

App. 63a
talking about the State Board itself, and found the
power at issue to be of public interest. (Id. at p. 687
[addressing various State Board decisions]; id. at pp.
731-732 [§§ 1257 and 1258 specified factors for
applications to appropriate water and permitted State
Board to subject appropriations to conditions
necessary for water control plans; explaining that the
power to impose such conditions was “undoubtedly ...
to be exercised for the public at large” and thus
mandatory].) Abatti does not establish that requiring
districts to follow certain application procedures for
one set of users is a matter of public interest,
particularly in view of the fact that the statutes make
clear that districts retain discretion over water
distribution. 34
Finally, Abatti contends that the 2013 EDP violates
Water Code section 106, and the superior court’s
finding that it does so constitutes an independent
basis for affirmance. The District contends that the
2013 EDP is consistent with section 106, based on,
among other things, the fact that most of the District’s
water goes to farmers, and its need to balance
competing policy considerations. Having already
We reject two other points that Abatti raises. He contends
that these provisions demonstrate that the legislature intended
for water to be “limited to Farmers in times of shortage,” not
permanently. Abatti provides no statutory analysis to support
this assertion, and this interpretation would be contrary to the
permissive nature of the statutes and their preservation of
District discretion. He also contends that “the notice provisions
in the earlier SDI EDPs [are] a tacit admission” that allocations
during shortages are subject to section 22252.3. Previous EDPs
provided for notices to farmers with their apportionment, not an
application system as envisioned under section 22252.3.
34

App. 64a
concluded that the District abused its discretion in its
user prioritization, we need not resolve whether
section 106 is an alternative basis for affirmance on
that issue.
However, we do have doubts that the 2013 EDP is
consistent with this section. Section 106 expresses a
clear policy preference for domestic and then
irrigation use, providing, “It is hereby declared to be
the established policy of this State that the use of
water for domestic purposes is the highest use of
water and that the next highest use is for irrigation.”
The 2013 EDP effectively prioritizes all other users
over farmers, not only domestic users. It is true, as
the District observes, that other policies apply to the
District as well, including conservation. (See § 107
[“The declaration of the policy of the State in this
chapter is not exclusive, and all other or further
declarations of policy in this code shall be given their
full force and effect”]; e.g., § 100 [requiring that water
be put to reasonable and beneficial use, and that
conservation be exercised in view of such use].)
Nevertheless, the District must exercise its discretion
to distribute water under section 22252 consistent
with all of these policies—including section 106. 35
We address one final point here. The superior court found
that the 2013 EDP “allows water to be provided to new water
users,” to the detriment of farmers in shortages. The court
appears to have assumed that the District has control over new
residential or commercial development within its service area, or
at least the authority to deny water to such new users. We
question these assumptions, and to the contrary, surmise that
new development may entail review and decision making by
multiple entities, as we see in California Environmental Quality
Act cases. New users then become part of the public served by
35

App. 65a
c. The District did not violate the no injury rule
or appurtenancy
i. No injury rule
The no injury rule arises from the common law
principle that an owner of water rights “has the right
to change the purpose and place of use of ... water, so
long as any change does not injure others with rights
in the watercourse.”
(North Kern, supra, 147
Cal.App.4th at p. 559; SWRCB, supra, 136
Cal.App.4th at pp. 739-740 [discussing common law
sources for no injury rule].)
This rule was
incorporated into the Water Code. (§ 1700, et seq.) A
permittee holding appropriative water rights “may
change the point of diversion, place of use, or purpose
of use,” subject to requirements that include Board
permission. (§ 1701.) “Before permission ... is granted
the petitioner shall establish, to the satisfaction of the
board, and it shall find, that the change will not
operate to the injury of any legal user of the water
involved.”
(§ 1702; see also § 1706 [other
appropriators (e.g., pre-1914 rights holders) “may
change the point of diversion, place of use, or purpose
of use if others are not injured by such change”]; §§
1725, 1736 [addressing water transfers].) The no
injury rule applies to all legal users of water, not just
traditional rights holders, but its application in a
the District, consistent with its obligations to manage and
distribute water equitably. (See Leavitt, supra, 157 Cal. at p. 90
[“[a]ll who enter the class may demand the use of the water”];
Butte County Water Users’ Ass’n v. Rr. Comm’n of Cal. (1921) 185
Cal. 218, 230 [company supplying water for irrigation “has not
the power to take on new consumers without limit” and the
matter is “one of judgment”].)

App. 66a
particular situation depends on the effect of the
changes at issue on the users’ rights. (SWRCB, at pp.
743, 800.)
The superior court found that the “District’s
agricultural water users are among the class of legal
water users to which the ‘no injury’ rule applies,” and
that the 2013 EDP violates the rule, “[b]ecause [its]
prioritization puts [new water users] ahead of farmers
... .” We disagree. The no injury rule applies only to
changes to the point of diversion or place or purpose
of use—not to modifications to water service—and
therefore does not apply here. The farmers are legal
users, but their right is to water service; the District
conduct at issue is the implementation of the 2013
EDP, which modifies that service. Further, this case
does not involve an attempt to change the District’s
permit, such that § 1702 would apply. (SWRCB,
supra, 136 Cal.App.4th at p. 753.)
Abatti’s arguments for application of the no injury
rule lack merit. He argues that farmers can assert
injury because they hold pre-1914 water rights, the
District’s permit is subject to “vested rights,” and,
under its permit, the District would have “no power to
transfer ... water” other than for the original
irrigation and domestic purposes and would have to
comply with the no injury rule to add industrial use.
(§ 1381 [water use is limited “to the extent and for the
purpose allowed in the permit”]; § 1700 [purpose may
be changed pursuant to statute]; § 1701.2 [permit
holder must demonstrate reasonable likelihood of no
injury to legal user].)
As an initial matter, we reject Abatti’s
characterization of apportionment as a “transfer” of

App. 67a
water or water rights, and his similar use of
“redistribut[ion]” elsewhere. As discussed above, the
farmers’ rights are to service; implementing an
apportionment plan does not shift water rights, but
rather, modifies the service.
The arguments
themselves lack merit, as well. Abatti has not
established that the farmers hold pre-1914 rights and
regardless, the key issue here is not whether the
farmers are legal users; it is that there is no relevant
injury since, as noted, there was no change to the
point of diversion or place or purpose of use and thus,
the no injury rule is not implicated. As for the
District’s permit, not only is the conduct at issue the
adoption of an equitable apportionment plan, rather
than a permit change application, but uses beyond
domestic and irrigation were already in place at the
time of the adoption of the 2013 EDP. Municipal use
was added to the District’s permit in or after 2002,
and contracts in the record reflect that the District
had been supplying water to industrial users for
decades. If that industrial use constituted a change
in use for purposes of the no injury rule, it arguably
occurred when those contracts went into effect—not in
the 2013 EDP. 36
The District relies on federal law and California regulations
to contend that domestic use encompasses industry; Abatti
disagrees, citing the permit’s lack of industrial use coverage. (See
Arizona I, supra, 373 U.S. at p. 566 [Project Act incorporates 1922
Compact definitions]; 1922 Compact [defining domestic use to
include municipal, industrial, and more]; Cal. Code Regs., tit. 23,
§ 663 [municipal use includes “use incidental thereto”].) Because
the 2013 EDP did not effect a change in use, we need not resolve
this issue.
36

App. 68a
ii. Appurtenancy
As discussed ante, landowners possess a right to
water service that is appurtenant to their lands.
(Bryant, supra, 447 U.S. at p. 371, fn. 23.) The
District objects to the superior court’s determination
that, under Bryant, the District could not “take
perfected water rights from the present owner of the
lands to which they are appurtenant and transfer
[them] ... without appropriate consideration.” We
agree that this reasoning, and the superior court’s
finding that the District violated the “appurtenancy
rule,” are in error.
Neither the superior court nor the parties have
identified any authority for this “appurtenancy rule.”
We infer that the court was referring to its finding that
the District may not modify service to users with
appurtenant rights, to provide service to others who
do not possess such rights, which is how Abatti used
the term in his proposed statement of decision.
Whatever the terminology, we disagree. First, this
conclusion relies on viewing apportionment as a
transfer, which we rejected ante. Second, although
Bryant recognized that landowners are equitable and
beneficial owners of the District’s water rights, with
an appurtenant right to service (Bryant, supra, 447
U.S. at pp. 371, fn. 23), it did not make the ruling
described by the superior court. Abatti contends that,
in Bryant, the Ninth Circuit had found that
redistribution of water deliveries among landowners
would be permissible and that the Supreme Court
stated that such a redistribution “‘would go far toward
emasculating the substance, under state law, of the
water right decreed to the District.’” In making this

App. 69a
observation, the Supreme Court was discussing the
Reclamation Act cap generally, not redistribution
specifically; elsewhere, the Bryant Court declined to
find that landowners were entitled to particular
amounts of water. (Bryant, at p. 371.) Further, and
more importantly, Bryant had no reason to address
whether the District could modify deliveries to those
with appurtenant rights to service, much less whether
such modification would require consideration. 37
3. Agricultural allocation
a. Superior court hearing and ruling
At the hearing on Abatti’s petition, the superior
court inquired about gate history. District counsel
stated that the District possessed gate history for the
past 30 years, but not field history, and “on any single
gate you can have multiple fields which are farmed by
multiple different farms.” The court responded that
“the great majority ... have a single gate for a single
field unit,” and although some did not, “at least it will
give you a history for that gate and then you can ...
address the delivery to that area, something that can
be figured out.” District counsel explained that they
“had a lot of difficulty ... figuring out field history ...
prior to QSA, when [they] started implementing
As noted ante, the Bryant Court was not even considering
equitable distribution under § 22252; as noted ante, it described
apportionment as taking place under § 22250, an assessment
approach no longer in use by the District. (Bryant, at p. 371, fn.
23.) We also reject Abatti’s contention that the District forfeited
its argument regarding the superior court’s appurtenancy rule
finding by not raising it in its opening brief. The ruling turned
on the court’s reasoning regarding appurtenant rights, which the
District did challenge.
37

App. 70a
[their] fallowing program,” and that “many – probably
the majority [of gates] – do have multiple fields ... .” 38
The superior court concluded in its Statement of
Decision that the 2013 EDP is unfair and/or
inequitable due in part to the agricultural allocation.
The court determined that “[t]o apportion irrigation
water equitably, an irrigation district must examine
the irrigated land, considering the soil type and crops
grown,” citing Tehachapi-Cummings County Water
District v. Armstrong (1975) 49 Cal.App.3d 992, 100102 (Tehachapi) and Simon Newman Co. v. Sanches
(1945) 69 Cal.App.2d 432, 438 (Simon Newman).
The superior court found that “different parcels of
farmland require different amounts of water,” due to
soil type and conditions, crop water requirements, and
decisions to grow different crops at different times of
year. The court elaborated:
“[A]pportioning water among farmers using
average historical use data measured at field
[g]ates over a 25 to 30 year period would take into
account such variables, including soil type, crop
selection and rotation, and single and double
cropping, would minimize any disadvantage to
farmers who have invested in on-farm conservation
measures and would resolve all of [Abatti’s]
The superior court disagreed with the District’s counsel,
explaining that the court was “quite familiar with the Valley and
[its] irrigation system” and had “driven from one end to the other
numerous times.” The court later acknowledged that there were
a “considerable number” of gates that serviced multiple fields,
but stated that the “problem arises if ... it’s the same gate
servicing two different farmers” and “[t]here’s probably not a lot
of those ... .”
38

App. 71a
objections to the 2013 EDP’s measures for
apportionment among farmers.”
The court stated that the District “has records of
historical water usage on farmland, measures at the
gate to each field, dating back to 1987, based on the
acknowledgement of such by counsel for [the District]
at the hearing.”
Next, the court found that the District’s use of
straight line apportionment was “not equitable,”
because “standing alone, it potentially allocates more
water to some users than they need, increasing the
potential for waste, and concomitantly risks shorting
other farmers who need higher volumes of water
because of soil type and/or crop requirements.” The
court further found that “[t]o the extent it encourages
waste, straightline apportionment violates Article X,
Section 2 of the California Constitution.”
Finally, the court indicated that Board directors
“recognized that historical use was a better basis” for
apportionment and that “one reason [the District]
resorted to the straight-line method was ease of
implementation and administration by staff.” The
court also viewed the District’s implementation of the
hybrid method, after specifying straight line as the
default method, as “an acknowledgement of the
inappropriateness” of straightline apportionment.
b. The District did not abuse its discretion in
its agricultural allocation
The superior court’s ruling is flawed in several
respects, including its failure to assess the
agricultural allocation actually adopted in the 2013
EDP. After addressing these flaws, we review the

App. 72a
agricultural allocation adopted in the 2013 EDP and
conclude that the District did not abuse its discretion.
First, the court did not address all of the components
of the agricultural allocation contained in the EDP.
The court found that the straight line method,
“standing alone,” would potentially lead to water
shortages and unconstitutional waste. The court also
found that the District’s implementation of the hybrid
method for calendar year 2014 reflected that straight
line apportionment was inappropriate. But the court
did not account for the Method of Apportionment
section of the 2013 EDP, which sets forth multiple
different methods of apportionment and permits the
District to change the method each year; that the EDP
allows for sharing among farm units; and that the
EDP establishes a water clearinghouse for sharing
among users. 39
Second, the court erred in determining that
equitable distribution requires an irrigation district to
“consider[] the soil type and crops grown,” and that
using “average historical use data measured at field
[g]ates over a 25 to 30 year period” would take into
account such variables. The court also found that
utilizing historical use would “resolve all of [Abatti’s]
objections to the 2013 EDP’s measures for
apportionment among farmers.” In making these
findings, the court appeared to find, at least impliedly,
that a particular historical approach is the only
Further, the fact that straight line apportionment remained
an option meant that the District presumably had not found the
method to be inappropriate.
39

App. 73a
reasonable method of apportionment. However, the
issue is whether the District acted within its
discretion in selecting the agricultural allocation that
it did, not whether a different type of apportionment
would be better—much less whether the
apportionment selected would satisfy Abatti’s
personal concerns.
(See Carrancho, supra, 111
Cal.App.4th at p. 1268 [traditional mandamus may
not be used to “force the exercise of discretion in a
particular manner or to reach a particular result”];
Klajic v. Castaic Lake Water Agency (2001) 90
Cal.App.4th 987, 995 [“‘In determining whether an
agency has abused its discretion, the court may not
substitute its judgment for that of the agency’”].)
Even if one could conceive of a situation in which only
one particular action on the part of an agency could be
reasonable, the court’s legal and factual findings do
not support such a conclusion here.
The cases cited by the superior court, Tehachapi and
Simon Newman, do not address equitable
distribution, and, contrary to the superior court’s
suggestion, do not require that a historical approach
to apportionment be used. If anything, those cases
make clear that past use and current need are not
synonymous.
Tehachapi reversed a judgment
adjudicating groundwater rights, explaining that an
overlying owner’s share “is predicated not on his past
use ... but solely on his current reasonable and
beneficial need ... .” (Tehachapi, supra, 49 Cal.App.3d
at pp. 996, 1000-1001.) The court explained that when
“there is insufficient water for the current reasonable
needs of all the overlying owners, many factors are to
be considered in determining each owner’s

App. 74a
proportionate share,” such as soil character. (Id. at
pp. 1001-1002.) The Tehachapi court did not hold that
any particular factor must be considered, much less
that focusing on past use is the only appropriate way
to take into account pertinent factors.
Simon
Newman reversed a judgment apportioning water by
acreage to owners of parcels that had been part of a
tract serviced by a ditch. (Simon Newman, supra, 69
Cal.App.2d at p. 434; see id. at p. 440 [where open
ditch irrigates tract, sold parcels may benefit by
“implied easement ... for necessary, correlative
irrigation purposes”].) The Simon Newman court
explained that if apportionment is based on acreage,
rather than need, the apportionment plan should
consider use or “may not be deemed to be equitable”—
thus supporting a focus on need or use. 40
Third, the superior court’s factual findings lack
support. The court found that “different parcels of
farmland require different amounts of water,” due to
soil type, crop water requirements, and decisions
Simon Newman’s explanation is somewhat opaque, but we
believe we capture the gist of it: “It is apparent that an
apportionment of water based solely on the relative number of
acres of land which each owner possesses, without determining
the quantity of water necessary for use on any parcel or portion
thereof should depend upon an accurate estimate of the actual
number of acres in each parcel subject to similar irrigation and
that all of the land in each tract is susceptible of producing the
same variety of crops, or that it may reasonably be used for
similar purposes.” (Simon Newman, supra, 69 Cal.App.2d at
438.) To the extent that Simon Newman calls into question pure
straight line apportionment, that is not the agricultural
allocation adopted by the District in the 2013 EDP.
40

App. 75a
about crop type and time of planting, and that field
history would take such factors into account. The
expert report by Hanemann and Brooks found that
variation in water use was more likely due to farming
practices rather than factors such as soil or crop
type—meaning that even if apportionment based on
field history would account for those practices, it
would not necessarily be equitable. The court also
found that apportioning based on field history would
“minimize any disadvantage to those who had used
on-farm conservation.” To the contrary, using field
history could force those who had conserved to
continue doing so, while giving those who had not
conserved no reason to start.
Finally, the record does not support the superior
court’s finding that the District “has records of
historical water usage on farmland, measures at the
gate to each field, dating back to 1987, based on the
acknowledgement of such by counsel ... .” The expert
report reflected that although the District had water
delivery data, it was “not necessarily accurate” at the
field level and that as many as 3,000 fields (of the
7,000 with deliveries since 1987) either lacked, or had
questionable, histories.
Indeed, the report
recommended against using field history in part
because of the inadequacy of the data. In addition,
contrary to the court’s assertion, District counsel did
not acknowledge that the District has 25-30 years of
field history. Rather, counsel indicated that the
District has gate history; that most gates served
multiple fields; and that the District has potentially
better information only from 2003 forward, when the
District implemented its fallowing policy. It was the

App. 76a
court that suggested that field history was available,
stating that the court was familiar with the region
and that most gates served a single field, or fields
owned by a single farm.
The court’s personal
experience is not evidence. (Cf. United States v.
Berber-Tinoco (9th Cir. 2007) 510 F.3d 1083, 1091
[judge may not rely on personal experience to take
judicial notice].) 41 Thus, while the record reflects that
the District had at least some recent field data, it does
not support the court’s finding that it had more than
25 years’ worth. 42
We now turn to the agricultural allocation that the
District actually adopted in the EDP, and conclude
that the District did not abuse its discretion in
selecting it. We have already determined that the
District reasonably found it necessary to adopt a
permanent EDP to address its water management
For similar reasons, we reject the superior court’s reliance on
certain Board members’ purported recognition that historical use
would be a better method of apportionment than straight line.
The issue is whether the agricultural allocation that the District
selected was within its discretion, not whether individual
directors may have preferred a different agricultural allocation.
41

Abatti cites fallowing and conservation program materials,
as well as other documents, as further evidence that the District
possesses historical field data. Those programs do use 10-year
historical baselines, although fallowing appeared to require that
participants with multiple fields at a gate have water use records,
implying some still might not have them, and could not
participate. Reliance on the other materials, such as the QSA
(which does not address historical use) and a federal register
digest regarding the IOPP (which focuses on District-wide
overruns), appears misplaced.
42

App. 77a
issues. The District could further have reasonably
found that the agricultural allocation in the 2013
EDP, which gives the Board discretion to choose
among apportionment methods and provides
flexibility through farm unit sharing and the
clearinghouse, addressed those issues by permitting
farmers to meet their needs while encouraging them
to conserve. This determination is reasonable and
supported by the record.
With respect to the default straight line
apportionment method, although the experts
recommended using a soil group history method, or
transitioning from soil group to straight line, they
found that the two methods were similar and that
pure straight line could eventually be used. Further,
the District retained discretion to use soil group,
historical, or hybrid methods and to modify them. The
clearinghouse and intra-farm sharing were also
consistent with the experts’ recommendations and
could ensure flexibility. Farmers who received more
water than they needed could use the clearinghouse
to sell it, thereby avoiding waste. Those who received
less water than they needed could purchase more from
the clearinghouse. Finally, by implementing a hybrid
method with a 10-year historical component in 2014,
the District demonstrated that the 2013 EDP was
sufficiently flexible to account for the experts’ caution
about moving directly to a straight line method of
apportionment, the inadequacy of the older field data,
and the input from the public, which had raised
concerns about both the historical and straight line
methods. The District also set the straight line
component of the hybrid apportionment at a level that

App. 78a
created a reserve in the clearinghouse, ensuring that
water would be available there. 43
Abatti’s arguments lack force. We have rejected his
contention that the 2013 EDP is unnecessary. He also
contends that an equitable allocation must take into
account the existing users’ “entitlement to reasonable
use of water,” and that the superior court correctly
concluded that straight line apportionment does not
do so. We reject this contention, as well. Reasonable
use is a limiting principle, not a basis for finding
entitlement to a particular amount of water. Further,
the contention disregards other components of the
EDP, and their role in getting water to those who need
it, such as the water clearinghouse.
Abatti’s reliance on City of Barstow v. Mojave Water
Agency (2000) 23 Cal.4th 1224 is misplaced. In that
case, the superior court entered a judgment in a water
dispute without regard to existing overlying and
riparian rights, and found it unnecessary to
adjudicate individual rights, due in part to its view
that the solution that the court had arrived at was
consistent with reasonable use. (Id. at pp. 1237-1238.)
On review, the Supreme Court held that the superior
court could not “disregard legal water rights in order
to apportion on an equitable basis water rights to all
producers in an overdrafted groundwater basin.” (Id.
The District also cites evidence demonstrating that other
irrigation districts use straight line apportionment and that the
method is the “most common” method used in “other parts of
California and in several other western states.” Abatti contends
that “[m]any of those districts have alternative sources of water
... .” While that may be true, use of the method elsewhere does
suggest that it does not necessarily lead to shortages and waste.
43

App. 79a
at pp. 1239-1240; id. at p. 1248 [“we have never
endorsed a pure equitable apportionment that
completely disregards ... owners’ existing rights”].) In
this case, no overlying or riparian rights were at issue;
rather, the District was apportioning water among
users with a right to service, not among holders of
different water rights. 44
Finally, Abatti contends that there is substantial
evidence to support the superior court’s finding that
straight line apportionment encourages waste, in
violation of the state constitution. We have already
concluded that the superior court’s reasoning is
flawed in this regard; although the court focuses on
the default straight line apportionment method, the
agricultural allocation gives the Board discretion to
select among multiple apportionment methods and
the EDP also includes sharing within farm units and
a clearinghouse. Abatti’s specific arguments here are
no more persuasive. He first cites Willard v. GlennAbatti cites several other cases. We addressed Tehachapi
and Simon Newman, ante. The remaining cases do not involve
equitable distribution, address different rights holders, or are
otherwise inapposite. (See, e.g., Katz v. Walkinshaw (1903) 141
Cal. 116, 133-136, 141 [overlying owners had correlative rights in
common supply of groundwater, and were entitled to reasonable
use]; Rancho Santa Margarita v. Vail (1938) 11 Cal.2d 501, 518519 [superior court erred by enjoining water use among riparians
based on extent of ownership, rather than current needs and
uses]; El Dorado Irr. Dist. v. State Water Resources Control Bd.
(2006) 142 Cal.App.4th 937, 942-943, 965-967 [affirming writ of
mandate requiring removal of permit condition that did not apply
to later appropriators; reasonable use and public trust doctrines
were primary, but no interest there justified subverting
priority].)
44

App. 80a
Colusa Irrigation Dist. (1927) 201 Cal. 726 to suggest
that straight line apportionment is inequitable. In
that case, the California Supreme Court held that
irrigation districts may charge rates in lieu of
assessments, and noted potential issues with
assessment systems. (Id. at p. 744; id. at pp. 742-743
[gap between land value and water need could lead to
waste and uncertainty, because owners would not be
obligated to sell excess water].) Willard was not
addressing an equitable apportionment plan, much
less one that allows for implementation of different
apportionment methods and includes a clearinghouse.
Abatti also cites charts used by District staff to
present their apportionment method findings at one
of the October 2013 hearings. One chart shows
average historical use by acre over a 10-year period,
and the other shows water amounts that would be
used under different apportionment methods. Not
surprisingly, these charts reflect that if initial
apportionment is not based on historical use, it will
vary from such use. However, the charts do not
account for the farm unit sharing and clearinghouse
contained in the 2013 EDP. 45
We conclude that the District abused its discretion
only as to its user prioritization. In all other respects,
the District acted within its discretion in adopting the

Abatti additionally contends that farmers “cannot reasonably
be subjected” to the uncertainty of straight line apportionment,
arguing that the “Legislature recognized as much in enacting
sections 22252.1 and 22252.3 ... .”
We rejected Abatti’s
interpretation of these sections ante, and he provides no support
for this further assertion.
45

App. 81a
2013 EDP, and the superior court erred in concluding
otherwise.
D. Declaratory relief
The District contends that the superior court erred
by granting declaratory relief that, among other
things, requires that the District use a historical
method for apportioning water. We agree.
1. Additional background
Abatti sought a declaration that the District had no
authority to adopt or implement the 2013 EDP, or any
other water distribution plan that “treats agricultural
water users unfairly, inequitably and in violation of
the [District’s] statutory and fiduciary duties to its
beneficiaries and their water rights.” He alleged that
an actual controversy exists as to whether the District
had the authority to adopt the 2013 EDP. He further
alleged that the 2013 EDP does not equitably
distribute water because it prioritizes other users over
farmers, and because it treats all farmland as
requiring the same amount of water.
In the statement of decision, the superior court
declared that the District “lack[ed] authority to
further implement the 2013 EDP,” or to adopt any
other plan that prioritizes “certain classes of water
users, other than domestic, ahead of farmers.” The
court stated:
“[A]ny apportionment of water among farmers
must not use a straight-line apportionment method
or hybrid method incorporating a straight-line
component, which is not equitable ... . [A]n equitable
apportionment of water must take into consideration
factors including the area to be irrigated, the

App. 82a
character of the soil, the crops to be grown, and the
practicability of irrigation. Therefore, the court
declares that historical use, which reflects these
factors, is the equitable and acceptable means of
apportionment.”
Finally, the court declared that the District is “not
empowered” to enter into new contracts with nondomestic or non-agricultural users that would
guarantee water during shortages, in a manner
inconsistent with the court’s findings. The court
entered a declaratory judgment consistent with these
findings.
2. Applicable law
Under Code of Civil Procedure section 1060,
declaratory relief “is available ‘in cases of actual
controversy relating to the legal rights and duties of
the respective parties.’” (Coronado Cays Homeowners
Assn. v. City of Coronado (2011) 193 Cal.App.4th 602,
607). “If an actual controversy exists, it is within the
trial court’s discretion to grant or deny declaratory
relief.” (Gilb v. Chiang (2010) 186 Cal.App.4th 444,
458.) However, the power to grant declaratory relief
“‘does not purport to confer upon courts the authority
to control administrative discretion.’” (Zetterberg v.
State Dept. of Public Health (1974) 43 Cal.App.3d 657,
664; see Bautista v. State of California (2011) 201
Cal.App.4th 716, 733-734 (Bautista) [“[d]eclaratory
relief ... does not confer upon the court the authority
to make pronouncements in a field reserved to other
branches of government”].)
We review the decision to grant or deny declaratory
relief for an abuse of discretion.
(Osseous

App. 83a
Technologies of America, Inc. v. DiscoveryOrtho
Partners LLC (2010) 191 Cal.App.4th 357, 364.) We
review underlying factual findings for substantial
evidence, and apply de novo review to legal issues.
(City of Oakland v. Oakland Police & Fire Retirement
System (2014) 224 Cal.App.4th 210, 226.)46
3. The superior court erred in its grant of
declaratory relief
The District first contends that the superior court
usurped its authority in declaring that historical
apportionment is the only reasonable method of
apportionment.
We agree.
Abatti sought a
declaration that the District lacks authority to adopt
the 2013 EDP or any other plan that treats farmers
inequitably. Even if the District acted inequitably
and abused its discretion in adopting the 2013 EDP,
the superior court did not simply declare that the plan
is inequitable and that the District lacks authority to
adopt it. Instead, the court went beyond the relief
requested, requiring the District to prioritize users in
a particular way, to use a particular apportionment
method, and to refrain from entering into certain
contracts. The court thus directed the District’s
Declaratory relief can be “employed to determine the relative
rights of all interested parties to a specified water source.” (1
Slater, California Water Law and Policy (2006) Introduction, ch.
9, p. 9-2; see, e.g., Tulare Irrigation Dist. v. Lindsay Strathmore
Irrigation Dist. (1935) 3 Cal.2d 489, 533 (Tulare).) However,
Abatti did not ask for a declaration of rights; instead, he assumed
that the farmers possessed certain water rights that were
superior to the rights of other water users, and based on those
assumed rights, asked for relief as to the EDP. We addressed the
issue of the farmers’ rights ante, and focus here only on the EDP.
46

App. 84a
future exercise of discretion. In doing so, it erred.
(See Bautista, supra, 201 Cal.App.4th at pp. 733-734
[rejecting farmworkers’ request for declaration that
heat illness regulation was inadequate and order for
state “to provide more protection to farmworkers”
through its agencies]; Cal. Optometric Assn. v.
Lackner (1976) 60 Cal.App.3d 500, 509 [declaratory
judgment under statute allowing challenge to
regulation validity was “infused with error” and abuse
of discretion, where it was “not confined to a
declaration of invalidity,” but “essay[ed] control over
the agency’s future proceedings”]; ibid. [declaration
also exceeded relief under Code Civ. Proc., § 1060; it
would
“dictate
a
public agency’s
ongoing
administration of statutory functions”].)
The view advanced by Abatti that the declaratory
relief that the superior court ordered is proper, is not
persuasive. Abatti contends that use consistent with
local custom is reasonable, citing Tulare, and that
“historical use of irrigation water gives rise to a
presumption of necessary and beneficial use,” citing
Joerger v. Pac. Gas & Elec. Co. (1929) 207 Cal. 8, 23.
Even if prior use were always reasonable—and the
cases that Abatti cites do not stand for this principle—
that would not would justify requiring the District to
use historical apportionment rather than another
method. (See Tulare, supra, 3 Cal.2d at pp. 547, 567
[appropriator can make reasonable use of water
“according to the general custom,” but elsewhere
noting that a beneficial use “may, because of changed
conditions, become a waste of water at a later time”];
Joerger, at pp. 22-23 [noting presumption of necessary
and beneficial use “[i]n passing”].)
Abatti also

App. 85a
contends that the court properly concluded that
equitable apportionment must consider various
factors reflected by historical use.
The court’s
conclusions lack support, as discussed above, and do
not suffice to bar other methods.
Second, the District contends that the superior
court’s declaratory relief violates the state
constitution,
because
requiring
historical
apportionment is contrary to reasonable use. The
reasonableness of historical apportionment is not
properly before us: the 2013 EDP permits, but does
not require, historical apportionment, and we have
already concluded that the superior court erred in
finding that this method is the only reasonable one
and granting declaratory relief requiring its use.
However, we shall still address the parties’
arguments.
The District contends that under the superior
court’s historical apportionment method, users with
high past use “will be apportioned the most water,
while those who have conserved ... will be apportioned
less,” and there would be no incentive to conserve.
These concerns are well-founded. 47
Abatti suggests that the District is arguing that
taking farmers’ needs into consideration encourages
waste, and contends that the District has not
We reject any inference that historical apportionment is
necessarily problematic. Just as the District used a default
straight line method and other components, and was able to
address conservation and user needs, a different apportionment
plan could conceivably be based on the historical method and
satisfy similar objectives.
47

App. 86a
identified evidence that farmers “engaged in any
unreasonable use of water in 2013” that justifies
limiting their water rights or the amounts of water
that they will receive from the District. The District
is arguing against a historical method that could
impede conservation; it is not advocating that
farmers’ needs be ignored. Further, the District has
the authority to modify service by way of an
apportionment plan regardless of whether farmers’
past use was unreasonable.
Abatti offers various arguments in support of the
superior court’s historical apportionment method,
which are not persuasive and would not justify its
mandatory use, in any event.
First, Abatti contends that farmers have become
more efficient since the QSA, citing a 2012 report on
water transfers that shows conservation from
fallowing and efficiency-based measures. Given the
overruns, the District could have reasonably
concluded that water management beyond these
programs was needed. Abatti further contends that
he has a “reasonable and beneficial need” for more
water than the hybrid method would allocate and that
he would suffer even more under straight line
apportionment, citing declarations that he filed in the
superior court. However, the declarations minimize
Abatti’s ability to obtain water from the
clearinghouse, claiming that “there is no guarantee”
that he could. Further, the declarations reflect that
Abatti has not actually been denied water. 48
Abatti represented that the reason he has not been denied
water was because of the on-going litigation and other factors.
48

App. 87a
Second, Abatti relies on an early discussion paper
prepared by Hanemann and Brooks to argue that the
experts “originally agreed” that historical allocation
“more accurately reflect[ed] differences in farmers’
water needs”; that it should require minimal cost,
given the District’s data; and that straight line
apportionment could be viewed as unfair. This
description is incomplete at best, and regardless, the
District could reasonably rely on the experts’ report
rather than on an earlier discussion paper. 49 Abatti
also maintains that the District possesses the data
necessary for a historical approach. Both the experts
and District counsel addressed the limits on the
District’s field-level data, at least prior to 2003.
Finally, Abatti contends that if an apportionment
plan fails to recognize historical use, the
“fundamental premise under which the QSA and the
IOPP operate[] will be undermined,” and that “[a]ny
precedent ... that water use history is irrelevant ...
would threaten future conserved water transfers” by
Colorado River diverters. Abatti does not elaborate on
the “fundamental premise” underlying the QSA and
IOPP, but to the extent that he is referring to the
historical agricultural basis for the District’s Colorado
The paper described the apportionment methods, but did not
identify one as more accurate in reflecting users’ water needs. It
stated that straight line “may or may not be viewed as fair” and
also noted that the historical method could be viewed as a “source
of inequity.” Abatti also notes that the experts’ conclusions
focused on shortage situations. The paper that Abatti cites
preceded the experts’ report, it addressed shortage situations as
well as normal ones, and the report provides support for the 2013
EDP, notwithstanding its focus on shortage scenarios.
49

App. 88a
River entitlement, we explained ante that the
District’s obligation to the farmers is to consider their
rights in apportioning water—not to preserve the
amounts that they have historically been apportioned
without change. As for Abatti’s fears about precedent,
the District’s objection to being forced to rely on
historical use does not mean that it intends to ignore
it. Indeed, the District included historical use as a
possible apportionment method in the 2013 EDP, and
implemented a hybrid method that contained a
historical component for calendar year 2014. 50
E. Breach of fiduciary duty and taking claims
The superior court sustained the District’s demurrer
to Abatti’s claims for breach of fiduciary duty and
taking without compensation (taking). We conclude
that the court properly sustained the demurrer.
1. Additional background
Abatti initially pursued claims for breach of
fiduciary duty and taking, when the case was
assigned to Judge Altamirano. The court sustained
the District’s demurrer to these claims in the first
amended petition, with leave to amend. In Abatti’s
second amended petition, with respect to his breach of
fiduciary duty claim, he alleged that the District
“owes Abatti and other users a fiduciary duty of fair
dealing, candor, care and loyalty” and that the
District breached its fiduciary duties with the
Abatti contends that this purported precedent would impact
water transfers “contemplated by the proposed Drought
Contingency Plan for the Colorado River,” for which he seeks
judicial notice. Because we reject this argument, we have no need
to take judicial notice.
50

App. 89a
adoption of the 2013 EDP. He further alleged that
“[a]s a proximate result of the [District’s] actions in
adopting and implementing” the 2013 EDP, he “has
been damaged ... .”
As for his taking claim, Abatti alleged that he and
other owners hold “valuable appropriative water
rights” and that “[r]eceiving water service from the
[District] in an equitable manner is essential to
preserving the value” of his real property and water
rights. He further alleged that in adopting the 2013
EDP, the District “has taken and damaged such
private property rights of Abatti and other similarlysituated agricultural property owners both through a
physical taking of water and a regulatory taking of
rights without compensation.”
The District demurred again. At the hearing on the
demurrer, the superior court expressed concern that
there “might not be property rights that are being
taken” and “may not be any damages.” Abatti’s
counsel argued that there was “harm to ... water
rights” once the 2013 EDP was implemented,
explaining that water could be “shunted at any time”
to those without rights and “[t]hat is the nature of the
harm.” Abatti’s counsel further argued that the 2013
EDP “eroded [Abatti’s] property rights, [and]
constitut[ed] a taking and a breach of fiduciary duty.”
Counsel then asked the court to “[a]ssume,
hypothetically” that he had an appraiser who would
say that the value of Abatti’s real property has been
reduced due to the uncertainty caused by the EDP,
and contended that he “may or may not be able” to
establish “that there is a proper element of damage,
but the time to prove it ... is at the trial ... .”

App. 90a
Judge Altamirano sustained the demurrer. The
court noted that there was “an allegation of the bare
legal conclusion of damage, without the allegation of
ultimate facts to back it up.” The court concluded:
“Although the court agrees that by virtue of past
dealings, [Abatti has] a reasonable expectation of an
allocation of water that is fair and equitable, the
court disagrees with [Abatti’s] claim that [he has]
property rights in allocations of water on a specific
basis such that [he] can claim damages for changes
in such allocations, if such changes in fact occur.
Because [the District] is funded on water rates, as
opposed to assessments, if the allocation fluctuates
downward, [Abatti is] relieved of the requirement of
paying for water [he does] not receive, hence there is
no ‘taking’ which would give rise to a claim for
inverse condemnation damages.”
The court denied leave to amend, explaining that
“[l]eave to amend is generally favored,” but noting that
Abatti had “already amended twice” and that he had
made “no showing as to how [he] could in good faith
amend ... to actually state a cause of action.”
2. Applicable law
We review a ruling sustaining a demurrer de novo,
exercising independent judgment as to whether the
complaint states a cause of action as a matter of law.
(Desai v. Farmers Ins. Exchange (1996) 47 Cal.App.4th
1110, 1115.) “We affirm the judgment if it is correct
on any ground stated in the demurrer, regardless of
the trial court’s stated reasons.” (Fremont Indemnity
Co. v. Fremont General Corp. (2007) 148 Cal.App.4th
97, 111.) Further, “‘[i]f another proper ground for

App. 91a
sustaining the demurrer exists, this court will still
affirm the demurrer[ ] ... .’” (Jocer Enterprises, Inc. v.
Price (2010) 183 Cal.App.4th 559, 566.)
When a demurrer is sustained without leave to
amend, “we decide whether there is a reasonable
possibility that the defect can be cured by
amendment: if it can be, the trial court has abused its
discretion and we reverse; if not, there has been no
abuse of discretion and we affirm. [Citations.] The
burden of proving such reasonable possibility is
squarely on the plaintiff.” (Blank v. Kirwan (1985) 39
Cal.3d 311, 318 (Blank).)
3. Analysis
a. Breach of fiduciary duty claim
“‘The elements of a cause of action for breach of
fiduciary duty are the existence of a fiduciary
relationship, its breach, and damage proximately
caused by that breach.’” (Green Valley Landowners
Assn. v. City of Vallejo (2015) 241 Cal.App.4th 425,
441.) Where “damages are an element of a cause of
action, the cause of action does not accrue until the
damages have been sustained.” (City of Vista v.
Robert Thomas Securities, Inc. (2000) 84 Cal.App.4th
882, 886 (City of Vista).)
The superior court determined that Abatti failed to
allege facts establishing damages that would support
his claims. We construe this as a finding that Abatti
did not sufficiently plead damages for purposes of his
breach of fiduciary duty claim. Even assuming that
the District had a fiduciary duty to Abatti and that
the EDP somehow breached that duty, we conclude

App. 92a
that Abatti’s failure to adequately plead damages is a
sufficient basis to sustain the demurrer. 51
In his initial brief, Abatti contended that his
pleading was adequate, because irrigation districts
cannot violate vested property rights. He elsewhere
cited, in support of both of his claims, allegations
describing the farmers’ purported property interests
in water distributed by the District, asserting that the
District “unlawfully takes water rights and water
away” from farmers, and that the District had
exacerbated the harm by implementing the 2013 EDP
after Abatti had planted crops and “in many
instances” financed them and crops for later that
season. He also contended that his counsel “made a
proffer as to diminution in value evidence” at the
hearing, referencing his counsel’s request to the
superior court that it “[a]ssume, hypothetically” that
he could provide such evidence.
We are not
persuaded. As we have determined, ante, Abatti
possesses a right to service, and changes to service do
not necessarily impede or diminish that right.
Assuming that injuries from such changes could
support a claim for damages, one would still have to
sufficiently allege them. Abatti simply speculates
that the 2013 EDP could harm farmers, if it were to
operate based on his own assumptions (e.g., the
clearinghouse would be ineffectual, etc.), and it
appears his counsel assumed that he could show a
Given the inadequacy of Abatti’s allegations of damages or
harm, we need not reach the superior court’s theory that the
nature of Abatti’s rights forecloses damages, and thus need not
address Abatti’s objection that the District never raised his “lack
of any property right” in its demurrer.
51

App. 93a
diminution in value in connection with those
assumptions. Even in alleging that the 2013 EDP has
the effect of taking water from him, Abatti does not
assert that he has actually been denied any water.
Neither potential harms, nor counsel’s hypothetical
arguments, suffice to establish compensable damages.
(Blank, supra, 39 Cal.3d at p. 318 [demurrer is treated
as “admitting all material facts properly pleaded, but
not contentions, deductions or conclusions of fact or
law”]; City of Vista, supra, 84 Cal.App.4th at p. 886
[“‘Mere threat of future harm, not yet realized, is not
enough.’”].)
On reply, Abatti contends that the breach of
fiduciary duty cause of action “was properly alleged
even if the specific nature and proof of [his] damages,
such as the value of [his] water right, the diminution
in the value of [his] real property due to a
permanently reduced water right, and/or the losses to
[his] farming business attributable to a future
diminished supply of water, remained for
determination,” citing Allen, supra, 101 Cal.App.2d at
p. 467. We need not address points raised on reply.
(American Drug Stores, Inc. v. Stroh (1992) 10
Cal.App.4th 1446, 1453 (Stroh) [“[p]oints raised for
the first time in a reply brief will ordinarily not be
considered, because such consideration would deprive
the respondent of an opportunity to counter the
argument”].) Even if we were to consider these
arguments, we would not find them to be persuasive.
The issue is not a lack of specificity in alleging
damages; rather, it is the lack of any alleged damages
at all. In describing potential harms, Abatti does not
contend that he has in fact suffered those harms. As

App. 94a
for Allen, the case is inapposite. (Allen, at pp. 467468, 473-475 [affirming judgment voiding irrigation
district lease that constituted breach of public trust;
no analysis of pleadings or damages].)
Finally, the burden is on Abatti to articulate how he
could amend his pleading to render it sufficient.
(Blank, supra, 39 Cal.3d at p. 318; Goodman v.
Kennedy (1976) 18 Cal.3d 335, 349 [“Plaintiff must
show in what manner he can amend his complaint and
how that amendment will change the legal effect of his
pleading.”].) Not only did Abatti fail to meet this
burden, he forfeited the issue by not addressing
amendment in his initial brief. (Badie v. Bank of
America (1998) 67 Cal.App.4th 779, 784-785 [“When
an appellant fails to raise a point, or asserts it but fails
to support it with reasoned argument and citations to
authority, we treat the point as waived.”]; Stroh,
supra, 10 Cal.App.4th at p. 1453.) Abatti’s conclusory
assertion on reply that he should be allowed to amend
does not salvage the argument.
b. Taking claim
“‘The
paradigmatic
taking
requiring
just
compensation is a direct government appropriation or
physical invasion of private property.’” (Bottini v. City
of San Diego (2018) 27 Cal.App.5th 281, 307 (Bottini).)
Government regulation may also “be so onerous that
its effect is tantamount to a direct appropriation or
ouster” and such “regulatory takings” may also be
compensable. (Ibid. [“‘regulations that completely
deprive an owner of “all economically beneficial us[e]”
of her property’”].) There is also a “third ‘essentially
ad hoc’ category of regulatory takings” under Penn
Central Transportation Company v. New York City

App. 95a
(1978) 438 U.S. 104, 124 (Penn Central). (Bottini, at
pp. 307-308 [primary factors are economic impact,
interference with investment-backed expectations,
and character of the government action].)
The superior court determined that Abatti did not
sufficiently allege a taking claim, reasoning that the
District is funded from water rates, so if the
“allocation fluctuate[d] downward,” Abatti would be
relieved of “paying for water [he does] not receive” and
“there is no ‘taking’ ... .” We agree that Abatti did not
sufficiently allege a taking claim, but for reasons
different from the superior court’s.
In his initial brief, Abatti contended that he
“specifically alleged a taking,” citing his allegation
that the 2013 EDP resulted in a taking of his property
through both a physical and a regulatory taking. He
also relied on his allegations and counsel’s arguments
as to property rights and potential harms, as he did
for his claim of breach of fiduciary duty. He then
reiterated that he “sufficiently alleged all of the
required elements of a taking,” citing various cases. 52
These contentions lack merit.
First, Abatti’s allegations that a taking occurred are
entirely conclusory. As for his other allegations, we
explained ante that Abatti’s right entitles him to
water service, and that he cannot allege harm based
on a change to service, alone, or speculation about
Abatti elsewhere cites section 22263, which provides that
nothing in the Irrigation District Law authorizes diversion to an
interest holder’s detriment without compensation.
Abatti
provides no substantive argument about this section, and thus
forfeits the point.
52

App. 96a
future harms. At best, Abatti’s taking cause of action
amounts to a claim that if the 2013 EDP were to cause
injury to farmers by denying them water, then it
would support a taking claim of some sort. This does
not establish that a physical taking has occurred, or
that any regulatory taking that might exist is ripe.
(Bottini, supra, 27 Cal.App.5th at p. 307; see York v.
City of Los Angeles (2019) 33 Cal.App.5th 1178, 1195
[owner bears “‘“heavy burden of showing that a
regulation as applied to a particular parcel is ripe for
a taking claim”’”].) Abatti also offers no analysis or
authority as to how a purported diminution in value
would support a taking claim here.
Courts have rejected taking claims based on water
use when they were premature or otherwise
unfounded. (See Casitas Municipal Water District v.
United States (Fed. Cir. 2013) 708 F.3d 1340, 1359
(Casitas) [physical taking claim based on right to
beneficial use of water accrued not when agency
issued opinion, but whenever diversion might occur];
Allegretti, supra, 138 Cal.App.4th at pp. 1267, 12711272 [county did not effect a physical taking by
approving conditional use permit that limited aquifer
extraction, where county did not encroach or
authorize encroachment on owner’s land or aquifer, or
divert water]; id. at pp. 1276, 1277 [owner also did not
establish total regulatory taking or taking under Penn
Central].)
The cases that Abatti cites illustrate that water
rights can support a taking claim. However, that
point is not in dispute. The cases do not establish that
Abatti adequately pled such a claim. (See Peabody v.
City of Vallejo (1935) 2 Cal.2d 351, 358-359, 374-375

App. 97a
[in action by riparian owners, acknowledging
appropriator use that “causes substantial damage” to
land with paramount right is “an impairment ... for
which compensation must be made,” but remanding
for consideration of reasonable use and other issues];
Salton Bay Marina, Inc. v. Imperial Irr. Dist. (1985)
172 Cal.App.3d 914, 937-938 (Salton Bay) [ordinance
required owner to dedicate property “for flooding
purposes” to obtain building permit; because
“potentially all of a ... property might have to be
dedicated,” the ordinance acted as a “subterfuge for a
taking”]; Klamath Irr. Dist. v. United States (Fed. Cir.
2011) 635 F.3d 505, 509, 511, 517-18 [addressing
federal cessation of water deliveries in 2001 to protect
endangered species; remanding for determination of
whether plaintiffs had property interests under
applicable Oregon law and whether those rights were
impaired]; Baley v. United States (2017) 134 Fed. Cl.
619, 668 [taking claim by landowner class in Klamath
litigation; termination of water delivery was analyzed
as physical taking].) 53
If anything, the cases
underscore the inadequacy of Abatti’s allegations. For
example, in the Klamath litigation, the government
actually withheld water deliveries. Trial testimony
reflected that a subsequent “late release of water was
of very little, or more often, no use,” and that some
plaintiffs “never received any of this water.” (Baley,
at p. 640.)

Abatti also cites a case outside the water context, Kissinger
v. City of Los Angeles (1958) 161 Cal.App.2d 454. Similar to
Salton Bay, it involved a zoning ordinance that was basically a
subterfuge for a taking. (See id. at pp. 460, 462-463.)
53

App. 98a
On reply, Abatti attempts to show that his taking
claim is not speculative. Even if we were to address
these belated arguments, we would reject them.
Abatti first cites the allegation in his petition that
receiving equitable water service is essential to
preserving the “value of [his] property rights.” He also
cites allegations from his petition that, under the 2013
EDP, he could lose up to 50 percent of the water that
he needs, and his business activities would be severely
hampered as a result.
These allegations are
inadequate for the same reasons as those he discussed
in his initial brief; they are speculative, rest on
unfounded assumptions regarding the EDP’s
operation, and reference a value diminution theory for
which he provides no substantive analysis. Second, in
response to the District’s contention that Abatti’s
claims are speculative, Abatti argues that if he had
filed suit after water delivery had been curtailed, the
District would have argued that his claim accrued in
October 2013, when the 2013 EDP was adopted, citing
Davies v. Krasna (1975) 14 Cal.3d 502, 515. We
decline to entertain such conjecture. Davies is not a
taking case, but rather, confirms that harm is
necessary for a claim of breach of fiduciary duty to
accrue, and, as noted, Abatti is merely assuming that
water will become unavailable at some future time.
(Davies, at p. 514; see Casitas, supra, 708 F.3d at p.
1360 [a “physical taking ... may never occur”].)
Abatti cites additional cases on reply, but those
cases involve actual diversions of water or cessation of
water delivery, or are otherwise inapposite. (See Los
Angeles v. Aitken (1935) 10 Cal.App.2d 460, 466-472,
475 [affirming damages for riparian and littoral

App. 99a
owners after city condemned and diverted
recreational waters in manner that would reduce
water levels]; U.S. v. Gerlach Live Stock Co. (1950)
339 U.S. 725, 729-730, 752-753 [upholding
compensation to riparian owners who depended on
river overflow, after construction of Friant Dam ended
overflow]; Dugan v. Rank (1963) 372 U.S. 609, 613,
625-626 [downstream water rights holders challenged
upstream impounding from Friant Dam construction;
if available, remedy would be damages based on
market value before and after taking]; Tulare Lake
Basin Water Storage Dist. v. U.S. (2001) 49 Fed. Cl.
313, 314-315, 318-320 [projects with government
contracts for water established physical takings based
on pumping restrictions to protect fish habitats that
resulted in water being unavailable].) 54
Finally, as with his breach of fiduciary duty claim,
Abatti had the burden to show how he could amend
his petition to state a taking claim, but failed to
address the issue in his opening brief, and has thus
forfeited it. The arguments that he raises in reply are
not persuasive. Abatti contends that he is entitled to
Abatti cites two additional sources. In his initial brief, he
seeks judicial notice of a comment made by a Board member at a
2018 hearing that an appurtenant right to use water cannot be
taken without compensation. On reply, he contends that the
District argued in Bryant that imposing the federal acreage cap
would have “taken the landowners’ water rights” and addressed
the value of the lost right. We decline to take judicial notice of
the Board member’s comment; the sufficiency of Abatti’s
pleadings is a question of law, and this does not advance that
inquiry. Although we need not consider the belated contention
about the District’s argument in Bryant, we point out that Bryant
did not involve a taking claim.
54

App. 100a
amend “to state more detailed allegations that the
amount of water allocated to [his] lands under the
EDP” is less than what he requires and “to allege
diminution in value of [his] lands as a result.” Even if
Abatti were to amend as he suggests, he would still
fail to allege any actual denial of water, and he cites
no evidence or authority to establish that the value of
his land has been diminished as a result of the
adoption of the EDP, or that even if there were a
diminution of value, that this would establish a taking
in these circumstances. 55
F. District challenges to Abatti’s petition
The superior court rejected the District’s arguments
that Abatti’s lawsuit is barred by the statute of
limitations and by a prior validation action. The
District has not established that these rulings are in
error.
1. Additional background
In addition to challenging Abatti’s breach of
fiduciary duty and taking claims, the District
demurred to his first amended petition on the grounds
that the petition challenged provisions that were
contained in previous EDPs and were thus barred by
the statute of limitations (Code Civ. Proc., § 338), and
that Abatti’s claims were also barred by the Morgan
v. Imperial Irrigation District (2014) 223 Cal.App.4th
892 (Morgan) validation action. 56 Judge Altamirano
Our conclusions here are limited to the taking claim brought
by Abatti. We take no position as to claims that a user might
bring in the future.
55

As we explain post, a government agency can bring a
validation action to confirm the validity of certain of its actions,
56

App. 101a
overruled the demurrer, but indicated that she had
questions. The District subsequently filed a motion to
strike the second amended petition on similar
grounds, and specifically sought to strike allegations
regarding EDP provisions that had been contained in
previous EDPs (i.e., allocation of water to nonagricultural users before farmers, the default straight
line apportionment, and the formation of a
clearinghouse).
In the same order in which Judge Altamirano
sustained the District’s demurrer as to the taking and
breach of fiduciary duty claims in the second amended
petition, she granted the motion to strike, in part. In
the demurrer section of the order, the court ruled that
a party aggrieved by an EDP is required to file a
reverse validation action within 60 days (i.e., of the
challenged government action), and that Abatti could
therefore challenge only the October 2013 EDP “with
respect to any change ... from the May 2013 EDP, as
to which, along with all prior [EDPs], attack is barred
by the passage of time.” Addressing the motion to
strike, the court first indicated that “references to the
earlier [EDPs] intended to in any [way] attack their
current vitality, are barred.” Pertinent here, and
notwithstanding the preceding rulings, the court
and a judgment in the agency’s favor bars future challenges; a
person or entity can also file a reverse validation action to
challenge government action. (Code Civ. Proc., § 860 et seq.)
Morgan was a reverse validation action in which water users
contested a rate change and fees in the 2008 EDP. The District
believes that Morgan bars challenges to provisions of the 2013
EDP that existed at the time. (Morgan, supra, 223 Cal.App.4th
at pp. 897, 903, fn. 4, 925.)

App. 102a
denied the motion to strike as to certain allegations in
Abatti’s petition that addressed provisions in the 2013
EDP that were contained in previous EDPs.
In November 2014, Abatti filed the operative third
amended petition, which retained these allegations.
The District filed another motion to strike addressing
the statute of limitations under Code of Civil
Procedure section 338 and Morgan, which Abatti
opposed. The case was reassigned to Judge Anderholt
in December 2014. Judge Anderholt heard and denied
the motion to strike. In denying the motion, the court
noted that Judge Altamirano’s order was “very
specific ... . [p]arts of these paragraphs are in; parts
of these paragraphs are out.” The court also asked the
District’s counsel whether these were issues that the
District could raise at trial, and counsel indicated that
it could. The District addressed the statute of
limitations and Morgan in its brief opposing Abatti’s
petition.
In its Statement of Decision, the superior court
ruled that Abatti’s action was timely. The court
explained that “the 2013 EDP was not merely
piecemeal revisions ..., and was adopted ... as a new,
complete, fully integrated plan which did not require
resort to older plans for interpretation.” The court
further explained that the 2013 EDP “contained
substantial changes” from prior EDPs, including
changes to the plan definitions and provisions
impacting farmers. The court also found that Morgan
did not bar Abatti’s claims, explaining in part that the
challenges to the prior EDPs in that action “had been
dismissed and therefore [were] not adjudicated in that

App. 103a
case,” and that the 2013 EDP “did not exist at the time
of resolution of the [Morgan] case.” 57
2. Analysis
a. The superior court did not exceed its
authority
As an initial matter, the District contends that
Judge Anderholt exceeded his authority by essentially
“overruling a different judge’s interim ruling in the
same case.” We disagree. Although the District’s
pleading challenges were based on the statute of
limitations under Code of Civil Procedure section 338
and the Morgan validation action, Judge Altamirano’s
rulings were based on a different ground, i.e., her view
that the statute of limitations for reverse validation
actions limited Abatti to challenging the October 2013
EDP. Further, in her ruling on the District’s motion
to strike, she declined to strike certain allegations
regarding existing EDP features—implying that she
did not view the reverse validation issue as a total bar
to consideration of such features. After the case was
reassigned to Judge Anderholt, the District filed
another motion to strike based on the statute of
limitations under Code of Civil Procedure section 338
and Morgan—grounds that Judge Altamirano had not
As part of his cross-appeal, Abatti challenged Judge
Altamirano’s ruling to the extent that it limited his ability to
challenge aspects of the 2013 EDP that had also been included in
the April and May 2013 versions of the EDP. The District viewed
the issue as moot, given that Judge Anderholt had ruled that
Abatti could challenge all aspects of the 2013 EDP, and Abatti
agreed in reply that his challenge to that portion of Judge
Altamirano’s ruling might be moot. We need not address the
issue further.
57

App. 104a
ruled on. The District agreed at the hearing that the
statute of limitation and Morgan issues could be
addressed at trial, and it raised them in its trial brief.
Thus, Judge Anderholt properly addressed these
issues in the court’s Statement of Decision.
b. Statute of limitations
“The general rule is that a cause of action accrues
“‘when, under the substantive law, the wrongful act is
done,” or the wrongful result occurs, and the
consequent “liability arises.”’” (Arcadia Dev. Co. v.
City of Morgan Hill (2008) 169 Cal.App.4th 253, 262
(Arcadia).) Whether an act related to a prior act is
separately actionable is “best analyzed by
determining whether there is a factual basis for
distinguishing” between them. (Ibid; id. at pp. 261262 [addressing whether owner could challenge city’s
extension of a previously-adopted growth control
ordinance].) Where, as here, “the underlying facts are
not in dispute ..., the question of when a cause of
action accrues is a question of law, subject to
independent review.”
(Pacific Shores Property
Owners Assn. v. Department of Fish & Wildlife (2016)
244 Cal.App.4th 12, 34.) 58
The superior court properly rejected the District’s
timeliness argument, because Abatti’s challenge to
the 2013 EDP accrued upon the adoption of the 2013
EDP. There is a significant basis to distinguish
between the 2013 EDP and the prior EDPs even if the
prior EDPs contained some of the same provisions as
Abatti views the issue of whether the 2013 EDP is new as a
disputed factual matter; even if that were so, it would not change
our conclusion in his favor.
58

App. 105a
are contained in the 2013 EDP: the prior plans would
apply only in shortage conditions, while the 2013 EDP
was intended to be a permanent annual
apportionment plan. There were other differences, as
well, including changes to the agricultural allocation
and new provisions to address overruns. Further, as
the superior court observed, the 2013 EDP is a
complete, independent plan that does not reference or
depend on prior versions. (See Arcadia, supra, 169
Cal.App.4th at p. 265 [extension of growth control
ordinance not intended to be permanent was “new
burden” and could be challenged]; Barratt American,
Inc. v. City of Rancho Cucamonga (2005) 37 Cal.4th
685, 703 [reenactment that extended duration of fee
schedule supported cause of action; change was
significant when considered with local agency’s
duties, and contrary result would render later
reenactments immune to challenge].)
To establish that the 2013 EDP and those that
preceded it are the same for purposes of its statute of
limitations argument, the District relies on its
description of the 2013 EDP and prior versions as
“revisions,” and notes that certain features contained
in previous plans remain in place in the 2013 EDP.
We are not persuaded. The issue is whether the 2013
EDP is different from previous plans. To the extent
that pre-existing plan elements remain in place, they
take on new significance as permanent, annual
features in the 2013 EDP. As for the cases cited by
the District, those cases involve provisions not
impacted by later enactments or are otherwise
distinguishable. (See Buena Park Motel Assn. v. City
of Buena Park (2003) 109 Cal.App.4th 302, 308

App. 106a
[plaintiffs could not challenge older hotel stay
ordinance, or portions of related provision not altered
by later ordinance]; Napa Citizens for Honest Govt. v.
Napa Cnty. Bd. of Supervisors (2001) 91 Cal.App.4th
342, 387, 390 [petitioners contended that traffic
measures in specific plan invalidated circulation
element of general plan; holding that attack on
general plan was untimely].)59 Finally, the District
contends that permitting challenges to long-standing
policies will “hamstr[ing]” its Board from making
needed changes. Again, because the 2013 EDP marks
a significant change, it is not insulated from
challenge; permitting such challenge poses no threat
to District’s discretion.
c. Morgan validation action
The validation statutes (Code Civ. Proc., § 860, et
seq.) “provide a procedure by which a public agency
may determine the validity of certain acts.” (Kaatz v.
City of Seaside (2006) 143 Cal.App.4th 13, 29.) A
judgment in a validation proceeding is “binding and
conclusive, as to all matters therein adjudicated or
which at that time could have been adjudicated ... .”
(Code Civ. Proc., § 870.) If the agency does not timely
file a validation proceeding, interested persons must
bring what is called a “reverse validation action” to
challenge the agency’s action. (Kaatz, at p. 30 and fn.
(See also De Anza Properties X, Ltd. v. Cnty. of Santa Cruz
(9th Cir. 1991) 936 F.2d 1084, 1086 [physical taking claim based
on elimination of sunset clause in rent control provision was
untimely, because duration impacted only damages]; cf. Arcadia,
supra, 169 Cal. App.4th at p. 266 and fn. 8 [distinguishing De
Anza, as a taking is complete upon occupation, and noting doubt
that it was “still viable law”].)
59

App. 107a
16.) “The validation statutes do ‘not specify the
matters to which [they] appl[y]; rather, [their]
procedures apply to “any matter which under any
other law is authorized to be determined pursuant to
this chapter.” ([Code. Civ. Proc.,] § 860.)’” (Id. at p.
31.) Under the Irrigation District Law, matters
subject to validation include the legality of an
irrigation district and the validity of contracts with a
duration of more than three years (and any federal
contract), assessments, and bonds. (Wat. Code, §§
22670, 23225, 23571, 50440.)
We agree with the superior court that Morgan did
not result in a validation judgment that bars Abatti’s
action.
First, the EDP-related claims in Morgan were
dismissed as moot. In that case, water users filed a
reverse validation action contending that the
District’s passage of new water rates violated
Proposition 218. (Morgan, supra, 223 Cal.App.4th at
p. 897.) They also challenged certain fees contained
in the 2008 EDP, which the District subsequently
eliminated. (Id. at pp. 903, fn. 4, 925.) The superior
court in the reverse validation action found that the
rate-setting was proper. (Id. at pp. 903-904.) As for
the EDP fees, the court found that the District “was
discharging its obligation to establish equitable rules”
for water distribution, but dismissed the EDP claims
as “moot by stipulation” because the fees had been
deleted and the parties stipulated that the EDP
contained no property related charge. (Id. at p. 927.)
The court then awarded attorney fees based on the
EDP claims. (Id. at p. 928) This court affirmed the
merits ruling, but reversed the attorney fee award.

App. 108a
(Id. at p. 930.) We determined that the superior court
had mistakenly assumed that the EDP fees were
improper, explaining that the fees had been deleted,
the issue was not litigated, and the parties’
stipulation did not imply that the fees would have
been improper if they had remained in effect. (Ibid.)
We noted that nothing in the court’s decision
precluded the District from imposing a fee in the
future, or customers from challenging it. (Id. at p.
931.) Second, Morgan could not have addressed,
much less resolved, the validity of the permanent,
annual provisions in the 2013 EDP, because they did
not exist at the time that case was litigated. Because
a validation judgment is binding only on matters that
were specifically adjudicated or “which at that time
could have been adjudicated” (Code Civ. Proc., § 870),
Morgan does not bar Abatti’s challenges to the 2013
EDP.
The District’s position is not persuasive. It argues
that the superior court in Morgan validated the EDP,
this was not challenged on appeal, and the validation
was thus binding and conclusive. Even assuming that
an EDP is subject to a validation proceeding, which
Abatti disputes, the District’s argument fails to
account for our holding in Morgan; our opinion in that
matter makes clear that the superior court did not
resolve the EDP claims on the merits. (Morgan,
supra, 223 Cal.App.4th at p. 930.)
Next, the
authorities that the District cites involve matters
encompassed by the prior litigation, which is not the
case here. (See, e.g., Colonies Partners, L.P. v.
Superior Court (2015) 239 Cal.App.4th 689, 694
[validity of settlement agreement was litigated in

App. 109a
prior validation action]; Eiskamp v. Pajaro Valley
Water Mgmt. Agency (2012) 203 Cal.App.4th 97, 100,
105-106 [challenge to 2002 ordinance increasing
groundwater augmentation charges was barred by
2008 stipulated judgment that addressed similar
ordinances and extinguished claims as to
augmentation and management charges]; Griffith v.
Pajaro Valley Water Mgmt. Agency (2013) 220
Cal.App.4th 586, 605, disapproved on other grounds
by City of San Buenaventura v. United Water
Conservation Dist. (2017) 3 Cal.5th 1191, 1209, fn. 6
[same claim as in Eiskamp; although ordinance “was
not technically under attack” at time of stipulated
judgment, case was validation proceeding that
extinguished potential claims].)
Finally, the District argues that “[t]he validating
statutes should be construed so as to uphold their
purpose, i.e., the acting agency’s need to settle
promptly all questions about the validity of its action,”
citing Friedland v. City of Long Beach (1998) 62
Cal.App.4th 835, 842. The purpose of validation is not
in dispute; validation judgments nevertheless are
binding only on “matters ... adjudicated or which at
that time could have been adjudicated ... .” (Code Civ.
Proc., § 870.)
Morgan does not satisfy those
requirements with respect to Abatti’s action.
G. Abatti’s challenges to the District’s appeal
Abatti argues that both collateral and judicial
estoppel preclude the District from relitigating the
farmers’ rights, and that the District’s appeal is moot.
We disagree.

App. 110a
1. The District’s contentions regarding the nature
of farmers’ rights is not barred by collateral or
judicial estoppel
“Collateral estoppel precludes relitigation of issues
argued and decided in prior proceedings.” (Lucido v.
Superior Court (1990) 51 Cal.3d 335, 341, citation
omitted.) The doctrine’s requirements are as follows:
“First, the issue sought to be precluded from
relitigation must be identical to that decided in a
former proceeding. Second, this issue must have been
actually litigated in the former proceeding. Third, it
must have been necessarily decided in the former
proceeding. Fourth, the decision in the former
proceeding must be final and on the merits. Finally,
the party against whom preclusion is sought must be
the same as, or in privity with, the party to the former
proceeding.” (Id. at p. 341.)
Abatti argues that the “issue of Farmers’ water
rights in the water held in trust by [the District] is
identical” to the issue in Bryant, and “was actually
litigated and necessarily decided” there. The issues
are not identical. Bryant addressed whether a federal
law could prevent the District from distributing water
to irrigating landowners with more than 160 acres,
and in doing so, discussed the nature of the
landowners’ rights. (Bryant, supra, 447 U.S. at p.
356.) This case addresses whether the District abused
its discretion in adopting an equitable distribution
plan for all users, including irrigating landowners.
Bryant aids our analysis, but does not resolve the
inquiry. (See Johnson v. GlaxoSmithKline, Inc. (2008)
166 Cal.App.4th 1497, 1513 [when “‘previous decision
rests on “different factual and legal foundation” [from]

App. 111a
the issue ... in the case at bar, collateral estoppel effect
should be denied’”].) 60
The judicial estoppel doctrine applies when: “‘(1) the
same party has taken two positions; (2) the positions
were taken in judicial or quasi-judicial administrative
proceedings; (3) the party was successful in asserting
the first position (i.e., the tribunal adopted the
position or accepted it as true); (4) the two positions
are totally inconsistent; and (5) the first position was
not taken as a result of ignorance, fraud, or mistake.’”
(Aguilar v. Lerner (2004) 32 Cal.4th 974, 986-987.)
Abatti contends that the District is judicially
estopped from arguing that the farmers “do not have
a constitutionally protected interest” in the District’s
water rights. He relies on the District’s submissions
in Bryant, where it argued, among other things, that
irrigating landowners possess an appurtenant,
It does not appear that Abatti raised collateral estoppel in
the superior court; although this could be a basis for forfeiture
(Rodgers v. Sargent Controls & Aerospace (2006) 136 Cal.App.4th
82, 89), we elect to address it. He raises additional, related
arguments on appeal, as well. Specifically, Abatti contends that
Bryant bars relitigation under stare decisis, which we reject for
reasons similar to our reasons for rejecting his collateral estoppel
argument. He makes a validation argument, based on a superior
court opinion validating the 1932 Contract between the District
and the United States, for which he seeks judicial notice. The
portion of the case that Abatti cites addresses the Reclamation
Act. Abatti has not established that it is a binding, validation
judgment as to the issues before us, and we therefore decline to
take judicial notice of the opinion. Last, Abatti also contends on
reply that the District raised different arguments regarding
water rights in the superior court, and thus forfeited the
arguments that it raises on appeal. We do not consider this
belated, cumulative argument.
60

App. 112a
constitutionally protected property interest in the
District’s water rights and that “each individual
landowner has a statutory right to a definite
proportion of the District’s water.” The superior court
did not address this argument when Abatti made it
below, and we reject it.
First, Abatti does not demonstrate that the District
has taken entirely inconsistent positions. (See Bell v.
Wells Fargo Bank (1998) 62 Cal.App.4th 1382, 13871388 [“The party must have taken positions that are
so irreconcilable that ... ‘one necessarily excludes the
other’”].)
It is not unreasonable, much less
irreconcilable, that the District emphasized
landowners’ rights in Bryant, but underscores its own
discretion and authority here; in both instances, the
District was defending its authority to distribute
water. To the extent that the District argued for
individual entitlement to a specific proportion of
water, Bryant appears to have rejected that
contention. (Bryant, supra, 447 U.S. at p. 371 [“[i]t
may be true ... that no individual farm ... has a
permanent right to any specific proportion of the
water”].) Second, even if the elements of judicial
estoppel were satisfied, “[j]udicial estoppel is an
extraordinary remedy that should be applied with
caution.” (Kelsey v. Waste Management of Alameda
County (1999) 76 Cal.App.4th 590, 598.) We see no
basis for its application here.
2. The District’s appeal is not moot
Finally, Abatti contends that the District’s appeal is
moot because the District has repealed the 2013 EDP.
We disagree.

App. 113a
Waiver of the right to appeal may occur when there
is “voluntary compliance” with a judgment. (Lee v.
Brown (1976) 18 Cal.3d 110, 115.) However, “where
compliance arises [only] under compulsion of risk or
forfeiture, a waiver will not be implied.” (Id. at p. 116;
see Cunningham v. Magidow (2013) 219 Cal.App.4th
298, 302 [appeal was not moot; respondent cited “no
authority” that “to preserve her right to appeal,
[appellant] was required to defy the court’s order”].)
The District contends that it repealed the 2013 EDP
because of the “threat of contempt,” and the record
supports that explanation. 61
The superior court’s writ of mandate required the
District to withdraw the 2013 EDP. The District
asked the superior court to recognize that the
automatic stay under Code of Civil Procedure section
916 applied pending its appeal; Abatti contended that
the stay did not apply. The superior court concluded
that it did not have discretion to provide the relief
sought by either party in light of the appeal. The
District then filed a petition for writ of supersedeas in
this court to confirm that the stay applied, while
Abatti filed a petition for writ of mandate to confirm
that it did not. On January 31, 2018, we denied the
District’s petition, concluding that the automatic stay
did not apply. Meanwhile, Abatti had objected to the
District’s actions in approving a geothermal contract
We take judicial notice of the District’s repeal of the 2013
EDP, the parties’ petitions to this court regarding a stay, and our
order. (Evid. Code, § 452; In re R.V. (2009) 171 Cal.App.4th 239,
245, fn. 1 [taking judicial notice of materials potentially relevant
to mootness].)
61

App. 114a
and advising farmers that it would continue
implementing the 2013 EDP as disobeying the
superior court’s rulings. On February 8, 2018, the
District repealed the 2013 EDP. These events support
the District’s explanation for the repeal, and reflect
that in repealing the 2013 EDP, it was merely
complying with the judgment pending its appeal.
Sierra Club. v. Bd. of Supervisors (1981) 126
Cal.App.3d 698, cited by Abatti, is inapposite. (See id.
at pp. 704-705 [appeal concerning allegedly
inconsistent zoning ordinance was mooted by
adoption of general plan that eliminated the
inconsistency].)
DISPOSITION
The judgment is affirmed as to the superior court’s
ruling that the District abused its discretion in how it
prioritizes apportionment among categories of water
users in the 2013 EDP, and as to its dismissal of the
breach of fiduciary duty and taking claims.
The judgment is otherwise reversed, and the
superior court is directed to enter a new and different
judgment: (1) granting the petition on the sole ground
that the District’s failure to provide for equitable
apportionment among categories of water users
constitutes an abuse of discretion; and (2) denying the
petition on all other grounds, including as to
declaratory relief.
The parties shall bear their own costs on appeal.
WE CONCUR:
BENKE, Acting P.J.
IRION, J.

App. 115a
Appendix B
Filed Aug. 15, 2017
SUPERIOR COURT OF THE STATE OF CALIFORNIA
COUNTY OF IMPERIAL
Case No. ECU07980
MICHAEL ABATTI, TRUSTEE OF THE MICHAEL AND
KERRI ABATTI FAMILY TRUST and MIKE ABATTI
FARMS, LLC, a California limited liability company,
Plaintiffs and Petitioners,
v.
IMPERIAL IRRIGATION DISTRICT and DOES 1-10,
Defendants and Respondents.
STATEMENT OF DECISION
L. Brooks Anderholt
Judge of the Superior Court
This matter came on regularly for hearing on April
17, 2017 in Department 9 of the above-entitled court,
Hon.
L.
Brooks
Anderholt
presiding.
Lee
Hejmanowski, Esq. of CALDARELLI HEJMANOWSKI
PAGE & LEER LLP appeared on behalf of Plaintiffs and
Petitioners MICHAEL ABATTI, TRUSTEE OF THE
MICHAEL AND KERRI ABATTI FAMILY TRUST and MIKE
ABATTI FARMS, LLC, a California limited liability
company (“Petitioners”) and Frederic Fudacz, Esq.
and Benjamin Rubin, Esq. of NOSSAMAN LLP and
Joanna Smith Hoff, Esq. appeared on behalf of

App. 116a
Defendant and Respondent IMPERIAL IRRIGATION
DISTRICT (“Respondent District”).
The court, having considered the contents of the file,
the documents filed by the parties, the evidence
presented at the hearing and the parties’ stipulated
administrative record, having heard the arguments of
counsel and taken the matter under submission, now
propounds its tentative decision.
BACKGROUND
This action arises out of a dispute between
Petitioners and Respondent District regarding the
Equitable Distribution Plan adopted in October 2013
(“the 2013 EDP”). Petitioners brought this challenge
as an ordinary mandamus action pursuant to Code of
Civil Procedure section 1085 to force Respondent
District to repeal the 2013 EDP and institute a
different distribution plan, and for declaratory relief
as to validity of the 2013 EDP and the appropriate
criteria that should be used in the creation of future
distribution plans.
PRINCIPAL ISSUES TO BE
DETERMINED BY THE COURT
1. Whether the Petitioners’ claims are barred by
statutes of limitation and/or the decision in Morgan v.
Imperial Irrigation District (2014) 223 Cal.App.4th
892.
2. The ownership of, and rights to, the water
managed by Respondent District.
3. Whether Petitioners’ challenge extends to the
2013 EDP in toto or only changes from the prior
equitable distribution plan promulgated in May 2013.

App. 117a
4. Whether the 2013 EDP is unfair or inequitable:
A. If it prioritizes other water users over
agricultural water users;
B. If it fails to apportion water based upon
historical water usage;
C. If it fails to apportion water among farmers
based on soil types and crops grown; and/or
D. If it uses a straight line basis as the default
method of apportioning water among farmers.
CONCLUSIONS OF LAW
Because Petitioners brought the mandamus aspect
of this action pursuant to Code of Civil Procedure
section 1085, the scope of judicial review of
Respondent District’s decision is limited to the
administrative record, and the court determines on
the record and matters subject to judicial notice
whether the decision of the agency was “arbitrary,
capricious, entirely lacking in evidentiary support, or
unlawfully or procedurally unfair.” (Carrancho v.
California Air Resources Board (2003) 111
Cal.App.4th 1255, 1265.)
Code of Civil Procedure section 1060 provides that
when an actual controversy exists regarding the legal
rights and duties of the parties with respect to each
other, or in respect to, in, over or upon property, the
court may make a binding declaration with the force
of a final judgment regarding such interested persons’
rights and duties.
As an irrigation district formed under the Irrigation
District Act, Respondent District holds the title to all
property it acquires, including any water it manages,

App. 118a
in trust for its use and purposes. (Water Code, §
22437.) It holds appropriative rights to Colorado
River water which are subject to an annual cap under
the Quantification Settlement Agreement (“QSA”) of
three million one hundred thousand (3,100,000) acre
feet, which is based on historical use. (Quantification
Settlement Cases (2011) 201 Cal.App.4th 758, 784.)
Water Code section 22252 requires that Respondent
District establish equitable rules for the distribution
of water.
A trust exists under which Respondent District
holds mere legal title to the water rights and the users
own the equitable and beneficial interest in the water
rights. The farmers’ equitable and beneficial interest
in the water rights is appurtenant to their lands and
is a constitutionally protected property right. (Bryant
v. Yellen (1980) 447 U.S. 352, 371, fn. 23.)
The “no injury” rule bars the transfer of water or
water rights that causes injury to an existing legal
water user. (Kidd v. Laird (1860) 15 Cal. 161, 179-81;
North Kern Water Storage District v. Kern Delta Water
District (2007) 147 Cal.App.4th 555, 559.) Respondent
District’s agricultural water users are among the class
of legal water users to which the “no injury” rule
applies. (State Water Resources Control Board Cases,
supra, 136 Cal.App.4th at 738-88.)
As trustee thereof, Respondent District cannot take
perfected water rights from the present owner of the
lands to which they are appurtenant and transfer
those rights or the appurtenances to other
beneficiaries without appropriate consideration.
(Bryant v. Yellen, supra, 447 U.S. 352, 371, fn. 23.)

App. 119a
Article X, Section 2 of the California Constitution
provides that the right to water is “limited to such
water as shall be reasonably required for the
beneficial use to be served,” and Water Code section
106 provides, “It is hereby declared to be the
established policy of this State that the use of water
for domestic purposes is the highest use of water and
that the next highest use is for irrigation,” but the
Water Code does not prioritize industrial,
environmental, or any other water use other than
domestic use over agricultural use.
To apportion irrigation water equitably, an
irrigation district must examine the irrigated land,
considering the soil type and crops grown. (TehachapiCummings County Water District v. Armstrong (1975)
49 Cal.App.3d 992, 1001-02 [in apportioning water,
which in that case was subject to riparian and
overlying rights, factors that must be considered for
agricultural water users are “the area sought to be
irrigated, the character of the soil, the practicability of
irrigation, i.e., the expense thereof, the comparative
profit of the different crops which could be made of the
water on the land …”]; Simon Newman Co. v. Sanchez
(1945) 69 Cal.App.2d 432, 438 [apportionment “should
depend upon an accurate estimate of the actual
number of acres in each parcel subject to similar
irrigation and that all of the land in each tract is
susceptible of producing the same variety of crops … .
Otherwise the apportionment may not be deemed to
be equitable.”].)
No California law prevents the subjecting of all
classes of water users to apportionment or reduction
in times of drought or water shortage.

App. 120a
The court finds that there is no statute of limitations
impediment to the prosecution of these proceedings by
Petitioners, as although there were prior equitable
distribution plans, the 2013 EDP was not merely
piecemeal revisions or amendments to such previous
plans, and was adopted in October 2013 as a new,
complete, fully integrated plan which did not require
resort to older plans for interpretation. This is
because the 2013 EDP contained substantial changes
from the prior equitable distribution plans, including
changes to the operational definitions of terms in the
plan, addition of new provisions impacting
agricultural users, and, most particularly, the
provision that farmers would have the lowest priority
among
municipal
users,
industrial
users,
environmental resources and other water users.
Because of this, the court finds Petitioners’ challenge
to the entirety of the 2013 EDP by the instant
proceeding, filed within one month of its adoption, was
timely.
The decision in Morgan v. Imperial Irrigation
District (2014) 223 Cal.App.4th 892 does not bar
Petitioners’ claims in this action because it was a
California Environmental Quality Act case, the
challenges to Respondent District’s prior equitable
distribution plans had been dismissed and therefore
not adjudicated in that case, and the 2013 EDP did not
exist at the time of resolution of the case.
FINDINGS OF FACT
The beneficial use of Colorado River water in the
Imperial Valley in the early 1900s by farmers,
including Michael Abatti’s familial ancestors,
perfected water rights Respondent District holds in

App. 121a
trust.
Respondent
District
managed
water
appropriation and delivery from its water supply for
nearly 100 years without an equitable distribution
plan.
Farmers in Respondent District do not pay for water,
but pay water service charges to Respondent District
for the delivery of water. Municipalities that receive
water from Respondent District receive it at a gate,
just like farmers receive water for irrigation.
As of the date this action was filed, Respondent
District viewed the 2013 EDP as a water budget that
is being applied and would continue to be applied
every year to help the Respondent District manage the
water it receives annually from the Colorado River,
even when it receives the full 3,100,000 acre-feet
available under the cap imposed by the QSA.
An equitable distribution plan could be structured to
ensure that every class of users has its water reduced
equally, with each class of user bearing the same
proportionate shortfall in water appropriation when
demand exceeds supply. The court finds that the 2013
EDP prioritizes other groups of water users, in
addition to domestic water users, over farmers. More
specifically, the 2013 EDP apportions water to
municipal users, industrial users, feed lots, dairies,
fish farms, and environmental water users before
farmers. [AR 534 at AR0027538]1
Contracts for water delivery between Respondent
District and industrial water users could be written to
Hereinafter, all references to the Administrative Record will
by AR[number] followed by AR[number].
1

App. 122a
state that the water delivered under such contracts is
subject to proportionate reductions in apportionment
commensurate with the apportionments to all other
classes of water users. However, the 2013 EDP places
no limits on the volume of water that Respondent
District is required to provide under such contracts.
The 2013 EDP similarly does not limit the amounts of
water that can be consumed by municipal users, feed
lots, dairies, fish farms, and environmental water
users. [AR534 at AR0027538]
The only source of water from which Respondent
District supplies its users is that derived from the
water rights acquired through the agricultural
interests in the Imperial Valley. The 2013 EDP allows
water to be provided to new water users, such as new
industrial and environmental users, which, in a period
of shortfall, would disproportionately affect existing
farmers. Because this prioritization puts those other
water users ahead of farmers, the 2013 EDP violates
both the “no injury” rule and the “appurtenancy rule”
and is contrary to law. The court therefore finds that
by adopting the 2013 EDP, Respondent District
abused its discretion by violating such rules.
The court also finds that the 2013 EDP is not
equitable because it disadvantages farmers, who
should not be treated differently and with a lesser
priority than other, non-domestic, classes of water
users, such that Respondent District abused its
discretion in adopting it.
The court finds and acknowledges that different
parcels of farmland require different amounts of water
because soil types and conditions, and crop water
requirements vary. The decision to grow different

App. 123a
types of crops at different times of the year can also
affect the water needs of a given parcel. The court
finds that apportioning water among farmers using
average historical use data measured at field dates
over a 25 to 30 year period would take into account
such variables, including soil type, crop selection and
rotation, and single and double cropping, would
minimize any disadvantage to farmers who have
invested in on-farm conservation measures and would
resolve all of Petitioners’ objections to the 2013 EDP’s
measures for apportionment among farmers.
The court finds that Respondent District has records
of historical water usage on farmland, measures at the
gate to each field, dating back to 1987, based on the
acknowledgement of such by counsel for Respondent
District at the hearing.
The court notes that to the extent Respondent
District has opted to use as part of the 2013 EDP a
straight-line apportionment method, which allocates
the same volume of water to each acre of farmland
regardless of soil type or crop, such apportionment
method is not equitable. This is because standing
alone, it potentially allocates more water to some
users than they need, increasing the potential for
waste, and concomitantly risks shorting other farmers
who need higher volumes of water because of soil type
and/or crop requirements. To the extent it encourages
waste, straight-line apportionment violates Article X,
Section 2 of the California Constitution.
The court recognizes that directors of the Board of
Respondent District, in the process of creating and
implementing equitable distribution plans leading up
to the 2013 EDP, recognized that historical use was a

App. 124a
better basis upon which to apportion water than
straight-line apportionment, [AR447 at AR002517678] and that one reason Respondent District resorted
to the straight-line method was ease of
implementation and administration by staff. [AR225
at AR0011104] The court also notes that while the
2013 EDP specifies straight-line apportionment as the
default method, [AR534 at AR0027537] subsequent to
adoption of the 2013 EDP in its current form, in 2014
the Board of Respondent District adopted a “hybrid”
method of apportionment which places a 50% weight
on historical usage and a 50% weight on the straightline method. The court views this change as an
acknowledgement of the inappropriateness of the use
of the straight-line method as a component of the
apportionment process.
RULINGS
Based upon the foregoing conclusions of law and
findings of fact, the court grants the petition for writ
of mandamus. Petitioners shall prepare a proposed
peremptory writ for the court’s issuance, which will
command Respondent Imperial Irrigation District to
repeal the 2013 EDP.
With respect to Petitioners’ claim for declaratory
relief, the court declares that Respondent Imperial
Irrigation District lacks authority to further
implement the 2013 EDP or to adopt any other
equitable distribution plan that prioritizes certain
classes of water users, other than domestic, ahead of
farmers and other agricultural users, or otherwise
favors the water needs of other water users, other than
domestic, over those of farmers and other agricultural
users.

App. 125a
The court also declares that any apportionment of
water among farmers must not use a straight-line
apportionment
method
or
hybrid
method
incorporating a straight-line component, which is not
equitable. The court further declares an equitable
apportionment of water must take into consideration
factors including the area to be irrigated, the
character of the soil, the crops to be grown, and the
practicability of irrigation. Therefore, the court
declares that historical use, which reflects these
factors, is the equitable and acceptable means of
apportionment.
The court also declares that effective the date of this
decision, Respondent Imperial Irrigation District is
not empowered to enter into any new contracts
committing to the provision of water to any nondomestic or non-agricultural user which guarantees
the supply of water during times of shortage in a
manner that is inconsistent with the court’s findings
herein.
Any claim by any party of entitlement to attorney
fees or costs is to be resolved by timely noticed motion
after entry of judgment.

App. 126a
Appendix C
Filed Oct. 28, 2020
No. S264093
IN THE SUPREME COURT OF CALIFORNIA
En Banc
Court of Appeal, Fourth Appellate District,
Division One - No. D072850
MICHAEL ABATTI, as Trustee, etc. et al., Plaintiffs and
Appellants,
v.
IMPERIAL IRRIGATION DISTRICT, Defendant and
Appellant.
The petition for review is denied.
CANTIL-SAKAUYE
Chief Justice

App. 127a
Appendix D
IMPERIAL IRRIGATION DISTRICT
EQUITABLE DISTRIBUTION PLAN
Adopted December 11, 2007
Revised November 18, 2008
Revised April 07, 2009
Revised April 23, 2013
Revised May 14, 2013
Revised October 28, 2013
1.0

Purpose.

1.1
Purpose. The Imperial Irrigation District
(“District” or “IID”) is authorized by State law to adopt
rules and regulations for the equitable distribution of
water within the District. The District Board has
approved a plan for the equitable apportionment of the
available water supply (the “Equitable Distribution
Plan”). This Equitable Distribution Plan strictly
prohibits individual landowners or water users from
transferring water and/or water rights outside the IID
service area, but does allow for an intra-district
clearinghouse for the movement of agricultural water
between IID Agricultural Water Users and Farm
Units within the IID water service area. Pursuant to
Resolution No. 26-2013, the IID Board of Directors has
adopted this Equitable Distribution Plan.

App. 128a
2.0

Terms and Definitions.

2.1
Agricultural Water. Water used for irrigation,
related to agricultural purposes, duck ponds, and
algae farming. Pipe and small parcel water service as
identified by the District’s Rules and Regulations
Governing the Distribution and Use of Water is not
included in this definition pursuant to Section 2.21
herein.
2.2
Agricultural
Water
Clearinghouse
or
Clearinghouse. A program administered by the
District or other entity authorized by the IID Board
of Directors to provide a means by which qualified
Agricultural Water Users can transfer water within
the IID water service area during a Water Year
pursuant to Section 5.0 herein.
2.3
Agricultural Water Distribution Board. A
committee of Agricultural Water Users and/or
landowners designated to provide oversight and
decision-making to the Agricultural Water
Clearinghouse.
2.4
Agricultural Water User. A District Water
User that uses Agricultural Water.
2.5
Apportionment. The amount of water equitably
apportioned among District Water Users pursuant to
Section 3.1 herein.
2.6
Available Water Supply. Water available to the
District minus District Operational Water, system
efficiency conservation subject to transfer, 11,500 AF

App. 129a
for miscellaneous present perfected rights, and any
Water Management Reduction.
2.7
Conserved Water Rate. The rate specified in
the District’s Rate Schedule 13.
2.8
Cropland. Irrigable acreage within the
District service area divided into fields based on the
[proprietary] District Geospatial Data Base compiled
from IID records, inspections and U.S. Consolidated
Farm Service Agency (CFSA) Common Land Unit
(CLU) standards, or other defined acreage database
such as the assessor’s parcel records as recommended
by an advisory committee and approved by the IID
Board of Directors.
2.9

District. The Imperial Irrigation District.

2.10 District
Conservation
Assignment.
Apportionment contractually or automatically
assigned to IID for water conservation purposes from
lands participating in or designated for participation
in any District On-Farm Efficiency Conservation
Program, Fallowing Programs or other District
conservation programs, or subject to the Temporary
Land Conversion Fallowing Policy or Interim Water
Supply Policy per the terms and conditions set forth in
those program agreements and/or IID policies.
2.11 District Fallowing Program. Any program
administered by the District to create conserved water
by fallowing agricultural lands per the terms and
conditions set forth in those program agreements

App. 130a
and/or IID policies, including the Temporary Land
Conversion Fallowing Policy.
2.12 District On-Farm Efficiency Conservation
Program. Any program administered by the District
to create conserved water by on-farm efficiency
projects per the terms and conditions set forth in those
program agreements and/or IID policies.
2.13 District
System
Conservation
Program/Projects. An integrated package of system
improvements to existing infrastructure and
construction of new facilities designed to conserve
water.
2.14 District Water User. Any user of water supplied
by the District.
2.15 Eligible Agricultural Acres. Acreage that is
subject to the Temporary Land Conversion Fallowing
Policy or meets all the following tests:
a. Cropland greater than 5 acres;
b. Used for crop production, duck ponds or
algae farming;
c. Current with water availability charges and
water bills; and
d. Connected to District water distribution
system.
2.16 Environmental Resources Water. Water that
the District agrees to provide to habitat or other
resource areas pursuant to: regulatory permits

App. 131a
(excluding water to the Salton Sea relating to
transferred water), contract, or voluntarily.
2.17 Farm Unit. A grouping designated by an
Agricultural Water User of one or more water
accounts comprised of one or more fields leased or
owned by the Agricultural Water User that can share
the Apportionment for those fields.
2.18 Method of Apportionment. The method used to
determine the Apportionment for Agricultural Water
Users during a Water Year. Apportionment models
understood and discussed to date are historical,
straight line, soil type and hybrids of a combination of
these methods. The default Method of Apportionment
is Straight Line Apportionment, which may be
changed for any Water Year prior to the notification
period set forth in Section 3.3 herein at the discretion
of the IID Board of Directors.
2.19 Non-Agricultural Water. All water supplied by
the District that is not Agricultural Water, including,
but not limited to, water supplied to municipal water
users, industrial water users, feed lots, dairies, fish
farms and Environmental Resources Water.
2.20 Non-Agricultural Water User. A District Water
User that uses Non­Agricultural Water within the
District.
2.21 Operational Water. Either a direct loss or a
reduction in water available for Apportionment
because of seepage, evaporation or other losses in the
District distribution system, as well as small parcel
and pipe water service, adjusted for calculated losses
associated with reduced IID diversions.

App. 132a
2.22 Overrun Payback Program.
A program
consistent with the federal Inadvertent Overrun and
Payback Policy or other federal policies or programs to
which the District may be subject, by which the cost of
and/or responsibility for any District payback
obligation will be borne by those water users
responsible for exceeding the Apportionment in a
Water Year (adjusted for any Clearinghouse water
transferred into or out of a water user’s Farm Unit)
should a District overrun occur in that Water Year.
2.23 Straight Line Apportionment. A Method of
Apportionment used to determine the Apportionment
for Agricultural Water Users based on a proration per
Eligible Agricultural Acre pursuant to Section 3.1
herein.
2.24 Take-or-Pay Basis.
An obligation that
Agricultural Water Users pay, pursuant to the
District’s Water Rate Schedules and Rules and
Regulations Governing the Distribution and Use of
Water, for all of the Apportionment accepted for a field,
irrespective of whether the water was used or not.
2.25 Water Card.
The common term for the
“Certificate of Ownership and Authorization of Owner
Designee or Tenant” described in Regulation No. 3 of
the District’s Rules and Regulations Governing the
Distribution and Use of Water. The Water Card
provides information i.e., Cropland, name and address
of owner and any lessees, APN, gate and canal
providing water service, identity of person authorized
to order water/receive notices from the District, who is
obligated to pay, and similar information.

App. 133a
2.26 Water Management Reduction. A reduction in
water available for Apportionment, or a percentage
reduction in a Farm Unit’s Apportionment, because of
a District-wide overrun payback requirement
mandatory program, or regulatory limitation of or
reduction in IID’s Colorado River water supply.
2.27 Water Year. Each 12-month period that begins
on January 1 and ends on December 31.
3.0

Equitable Distribution.

3.1
Apportionment of Supply. The District shall
annually apportion the Available Water Supply
among the types of water users in the District using
the following criteria:
a. Municipal Users - Base amount of 2006
usage plus current District-wide average use per
capita multiplied by the increase in population since
2006.
b. Industrial Users - For existing contracts,
estimated based on past use, not to exceed contracted
amount and contract terms. For new contracts,
estimated based on anticipated use, not to exceed
contract amount and contract terms, taking into
consideration the Integrated Water Resources
Management Plan.
c. Feed Lots, Dairies and Fish Farms Estimated based upon past use and consideration of
future changes.
d. Environmental
Resources
Water
Estimated based upon the amount reasonably
necessary to achieve the purposes of the District’s
commitments, taking past use into account.

App. 134a
e. Agricultural Lands - Subtract the estimated
demand for categories in Subsections (a) through (d)
above from the Available Water Supply. Under a
Straight Line Apportionment, divide the remaining
Available Water Supply by the total number of
Eligible Agricultural Acres to determine the
Apportionment per Eligible Agricultural Acre. Under
a different Method of Apportionment, the
Apportionment will be calculated for Eligible
Agricultural Acres based on that Method of
Apportionment. The full Apportionment of Eligible
Agricultural Acres that are no longer receiving
agricultural water service (such as renewable energy
generation projects) and have been designated as
suitable for the Temporary Land Conversion
Fallowing Policy, is subject to a District Conservation
Assignment.
3.2

Non-Agricultural Water Users.

a. District shall notify Non-Agricultural Users
of their Apportionment no later than December 1,
prior to the beginning of the Water Year.
b. Non-Agricultural Water Users shall be
allowed to use that amount of water needed for
reasonable and beneficial use. If a Non-Agricultural
Water User’s usage exceeds the amount of
apportionment quantified for its usage, the fee for the
excess amount of water shall be the Water User’s
standard water rate plus the Conserved Water Rate.
3.3

Agricultural Water Users.

a. Agricultural Water Users must complete and
keep current the Water Card and any Farm Unit
designations to receive an Apportionment and

App. 135a
delivery of water. It is the Agricultural Water User’s
responsibility to keep Farm Unit designations
current.
b. A written notice of the apportionment per
Eligible Agricultural Acre and the number of Eligible
Agricultural Acres per owner shall be sent to the
landowner, lessee and the authorized representative
no later than October 31 prior to the beginning of the
Water Year.
c. Prior to the start of the Water Year, the
landowner or authorized representative of Eligible
Agricultural Acres must, using a District form, with
written consent of the lessee (if any):
1. Accept some, all or none
Apportionment on a Take-or-Pay Basis.

of

the

2. Reserve some or all of the Apportionment
on a Take-or­Pay Basis for the use of a future lessee.
The landowner remains responsible for payment on a
Take-or-Pay Basis for the amount reserved for the
future lessee, unless and until payment is made by the
future lessee.
3. Designate the person or entity
responsible for payment of accepted and unused
Apportionment on the Take-or-Pay Basis.
4. Approve or disapprove the use of the
Apportionment on other fields within the Farm Unit.
5. Allow or disallow a lessee to offer
accepted and unused Apportionment to the
Agricultural Water Clearinghouse.
d. The Water User and/or landowner will only
be responsible for payment on a Take-or-Pay Basis for

App. 136a
Apportionment that is accepted. Payment for the
accepted Apportionment shall be made monthly based
on actual use or as provided by the Agricultural Water
Distribution Board or other entity authorized by the
IID Board of Directors. On December 31 of the Water
Year, payment for any remaining amount of the
unused Apportionment will be included in the year
end invoice.
e. Apportionment not affirmatively rejected is
considered accepted. In the event a District form
accepting Apportionment is not received for a field,
IID will provide water delivery service to an owner or
lessee with a valid Water Card in an amount not to
exceed the Apportionment.
f. Any rejection of Apportionment or any
transfers of Apportionment, whether within the Farm
Unit or via the Agricultural Water Clearinghouse, are
only for the Water Year in which they occur and do not
constitute a permanent transfer of Apportionment or
create a right to be apportioned water in future years.
3.4
The IID Board of Directors may terminate the
implementation of an annual Apportionment at any
time at its discretion or upon recommendation of the
Water Conservation Advisory Board. The District
shall track actual water demands during the Water
Year.
4.0

Farm Units.

4.1
The Farm Unit allows for the creation of a
master water account under which individual water
accounts are aggregated. The District will continue to
bill for delivered water by individual water account
and not by the Farm Unit or “master water account.”

App. 137a
4.2
The primary purpose of a Farm Unit is to allow
an Agriculture Water User to order water on any field
within the Farm Unit as long as there is a remaining
water balance for the Farm Unit greater than the
water order. If water is not available within the Farm
Unit, the water order will not be accepted, unless and
until procedures are developed and implemented
under this Equitable Distribution Plan, including
procedures for the Overrun Payback Program, that
allow for the acceptance of the water order.
4.3
The District will account for water and track a
water balance for each field. Fields can move between
water accounts when there is a change to the Water
Card and the water balance for the field will move
with the field.
4.4
A water account may only be associated with a
single Farm Unit at any one time. Any water account
not designated as part of a Farm Unit will be tracked
and identified as an individual Farm Unit comprised
solely of that water account.
4.5
The amount of Apportionment available to an
Agricultural Water User on leased fields included in a
Farm Unit must be approved by the landowner and
lessee of those fields.
4.6
Water can be added to a Farm Unit by
transferring water through the Agricultural Water
Clearinghouse, but the transfer must be made to
individual fields within the Farm Unit.
If no
particular fields are specified, the District will select a
field within the Farm Unit to initially receive the
water.
4.7

An Agricultural Water User may designate

App. 138a
multiple Farm Units. Apportionment may only be
transferred between Farm Units via the Agricultural
Water Clearinghouse, regardless of whether the Farm
Units are designated by the same or different
Agricultural Water Users.
4.8
The priority of water use within a Farm Unit is
(a) accepted Apportionment authorized for use on the
field, (b) water from other fields authorized for
transfer within the Farm Unit, and (c) water from the
Agricultural Water Clearinghouse. Water from a
higher-priority category must be fully-used before
water from a lower­priority category may be used
within a Farm Unit.
5.0

Agricultural Water Clearinghouse.

5.1
Purpose.
A mechanism to facilitate the
movement of apportioned water between Agricultural
Water Users between Farm Units. Management and
operation of the Agricultural Water Clearinghouse
may be delegated by the District to an entity
authorized by the IID Board of Directors on a nonprofit basis under rules approved by the IID Board of
Directors, however all final transactions must be
reported to the District for implementation.
5.2
Eligibility. Any Agricultural Water User with
Eligible Agricultural Acres can be a transferee. Any
Agricultural Water User with an accepted
Apportionment may be a transferor. All transferees
and transferors must be current on their District
water accounts and billings, including any payment
required on a Take-or-Pay Basis.
5.3
Priority of Transfers. Water made available to
the Clearinghouse for transfer will be distributed

App. 139a
pursuant to procedures developed and implemented
under this Equitable Distribution Plan. Prior to the
development of these procedures, water available for
transfer will be apportioned proportionally, by
acreage, to all Farm Units that have submitted a
request for additional water.
5.4
Dispute Resolution. All disputes regarding
water transferred into or out of the Clearinghouse will
be resolved by the Agricultural Water Distribution
Board or other entity authorized by the IID Board of
Directors.
5.5
Agricultural
Water
Distribution
Board
Composition.
This board shall be comprised of
agricultural landowners, water users and/or
representatives appointed by, or using a methodology
approved by, the IID Board of Directors.
5.6
Clearinghouse Notice of Transfer.
The
Agricultural
Water
Clearinghouse
reporting
mechanism to document all transfers of apportioned
water
including
the
relevant
transactional
information to execute the transaction between the
Transferor and Transferee.
5.7
Water Transferred Through the Agricultural
Water Clearinghouse. The transferee shall pay the
District the total payment amount due for the
transferred water before the processing of any Notice
of Transfer for the transferred water. The total
amount due is based on the Acre-Feet of water
transferred (not to exceed Clearinghouse Notice of
Transfer) multiplied by the current District
agricultural water rate. After the District processes
the Clearinghouse Notice of Transfer, the transferor

App. 140a
shall have no further obligation for payment of that
water on a Take-or-Pay Basis. Any supplemental
transactional information or fees associated with the
transfer of the water between the transferor and
transferee but not relevant to the implementation of
the transaction are a private matter and shall not be
reported to the District.
5.8
Offers Remaining at Water Year End. Any
offers for water to be transferred through the
Agricultural Water Clearinghouse not transferred by
the end of the Water Year may be used by the District
to meet the needs of other District Water Users,
fulfilling conservation responsibilities, or for other
District purposes. Use by the District in this manner
will not relieve the Water Users of payment required
on the Take­or-Pay Basis.
Interface With District Agricultural On-Farm
Conservation and Land Fallowing Programs.
5.9
An Agricultural Water User that participates in
the District’s On-Farm Conservation or Fallowing
Programs is subject to a District Conservation
Assignment of the Water User’s accepted
Apportionment for the Farm Unit equal to the amount
of water conserved by on-farm measures or fallowing
for which the Agricultural Water User is contracted.
a. If
the
Agricultural
Water
User’s
Apportionment is less than his On-Farm Conservation
or Fallowing Program contracted amount, he must
procure this difference from either: the Agricultural
Water User’s accepted Apportionment on other
Eligible Agricultural Acres, or the Agricultural Water
Clearinghouse.

App. 141a
b. If
the
Agricultural
Water
User’s
Apportionment is more than his Fallowing Program
contracted amount, the Agricultural Water User may
use the difference on other Eligible Agricultural Acres
not participating in a District Agricultural Land
Fallowing Program, on the fallowed field after the
term of Fallowing Program, or offer it to the
Agricultural Water Clearinghouse.
6.0

Miscellaneous

6.1
The IID Board of Directors, at its sole
discretion, which may include consideration of
recommendations by the Water Conservation
Advisory Board, may declare a 15-day period in which
all offers of water received by the Agricultural Water
Clearinghouse, of up to 7% (seven percent) of the
Water User’s Apportionment, shall be accepted by the
District thereby relieving the Water Users of payment
of that water on the Take-or-Pay Basis. This water
accepted by the District will be offered back for
transfer to Agricultural Water Users via the
Agricultural Water Clearinghouse.
6.2
The General Manager is authorized and
directed to do any and all things necessary to
implement and effectuate these Regulations in a
manner consistent with this policy, including the
temporary modification of any dates necessary to
facilitate implementation.

